CAPITAL CASE
No. _______

IN THE

Supreme Court of the United States
LEROY D. CROPPER,
Applicant,
V.

STATE OF ARIZONA,
Respondent.
APPLICATION DIRECTED TO THE HONORABLE ELENA KAGAN
FOR AN EXTENSION OF TIME WITHIN WHICH TO FILE
A PETITION FOR A WRIT OF CERTIORARI TO THE
SUPERIOR COURT OF ARIZONA, MARICOPA COUNTY

TODD E. HALE
TODD HALE LAW PLLC
The Historic Palacio Ruelas
290 N. Meyer Avenue
Tucson, AZ 85701
(520) 256-1012
todd@toddhalelaw.com

MICHAEL J. MEEHAN
Counsel of Record
LAW OFFICE OF MICHAEL MEEHAN
3938 E. Grant Road
No. 423
Tucson, AZ 85712
(520) 529-1969
mmeehan.az@msn.com

Counsel for Applicant
December 31, 2019

CAPITAL CASE
No. _______

IN THE

Supreme Court of the United States
LEROY D. CROPPER,
Applicant,
V.

STATE OF ARIZONA,
Respondent.
APPLICATION DIRECTED TO THE HONORABLE ELENA KAGAN
FOR AN EXTENSION OF TIME WITHIN WHICH TO FILE
A PETITION FOR A WRIT OF CERTIORARI TO THE
SUPERIOR COURT OF ARIZONA, MARICOPA COUNTY

To the Honorable Elena Kagan, Associate Justice of the Supreme Court of the
United States and Circuit Justice for Arizona:
Pursuant to 28 U.S.C. § 2101(c) and Supreme Court Rules 13.5, 22, and 30.3,
Applicant Leroy D. Cropper respectfully requests a 30-day extension of time, up to
and including February 20, 2020, within which to file a petition for a writ of certiorari
to review the judgment of the Superior Court of Arizona, Maricopa County in this
case. The judgment of the Maricopa County Superior Court was entered on February
7, 2017. The Arizona Supreme Court denied review on October 23, 2019. (A copy of
the Arizona Supreme Court’s order denying Cropper’s petition for review of the
dismissal of his petition for post-conviction relief is attached hereto as Attachment 1.
A copy of the Maricopa County Superior Court’s order dismissing Cropper’s petition

for post-conviction relief—the last reasoned decision in this case—is attached hereto
as Attachment 2.) Currently, any petition for a writ of certiorari would be due on
January 21, 2020. This application has been filed more than 10 days before the date
a petition would be due. See Sup. Ct. R. 13.5. This Court has jurisdiction under 28
U.S.C. § 1257(a) to review the decision in this case.
1.

This case involves the constitutionality of Cropper’s death sentence and,

in particular, whether he received the effective assistance of counsel during the
sentencing phase of his capital trial when he was sentenced to death by a jury that
was never told that the only other alternative was life without parole.
2.

In 1997, while Cropper was serving a sentence in an Arizona state

prison for possession of drugs for personal use, a hostile interaction between him and
a corrections officer led Cropper to stab the officer, causing his death. State v.
Cropper, 68 P.3d 407, 408-09 (Ariz. 2003); see also Ex. 12 to Pet. for Post-Conviction
Relief, No. CR 1997-003949 (Ariz. Super. Ct., Mariposa Cty. Jan. 25, 2015). In 1999,
Cropper pleaded guilty in Arizona state court to first-degree murder in connection
with the 1997 killing. Cropper, 68 P.3d at 408-09. In 2000, a judge sentenced Cropper
to death. Id. at 409-10. But after this Court’s decision in Ring v. Arizona, 536 U.S.
584 (2002), the Arizona Supreme Court vacated Cropper’s sentence. State v. Cropper,
76 P.3d 424 (Ariz. 2003). In 2006, the jury that was empaneled to resentence Cropper
ultimately hung because it could not reach a unanimous verdict. See Attachment 2
at 2, 13. The State tried again. And, in 2008, a second jury sentenced Cropper to
death. See id. at 2, 37-38. The Arizona Supreme Court affirmed Cropper’s sentence

2

on direct appeal. See State v. Cropper, 225 P.3d 579 (Ariz. 2010), cert. denied, 562
U.S. 982 (2010).
3.

In 2015, Cropper filed a petition for post-conviction review in the

Maricopa County Superior Court. Among other things, Cropper argued that counsel’s
performance was ineffective because he failed to request an instruction under
Simmons v. South Carolina, 512 U.S. 154 (1994), or otherwise inform the sentencing
jury that Cropper was ineligible for parole.

Cropper argued that counsel’s

performance was deficient; that he should not have to prove prejudice under
Strickland v. Washington, 466 U.S. 668 (1984); and that, if such a showing were
required, he had demonstrated prejudice. The Maricopa County Superior Court
disagreed and dismissed his petition. See Attachment 2.
4.

Cropper petitioned the Arizona Supreme Court for review. On October

23, 2019, the Arizona Supreme Court denied his petition. See Attachment 1.
5.

This case is the latest in a series of cases where state courts—first South

Carolina, then Arizona—have refused to adhere to the teachings of Simmons v. South
Carolina, 512 U.S. 154 (1994), and its progeny. It is undisputed that Cropper was
ineligible for parole under Arizona law at the time of his sentencing, and that the
State had raised the issue of Cropper’s potential future dangerousness. Accordingly,
the jury should have been instructed or otherwise informed about Cropper’s parole
ineligibility. But defense counsel never asked for such an instruction. A prior jury
hung because it was unable to reach a unanimous verdict. And the second jury

3

sentenced Cropper to death without knowing that the only alternative was life
without parole.
6.

This Court’s review is warranted to rectify that injustice, to ensure that

its death penalty jurisprudence is being followed by state courts, and to address
confusion among the courts regarding when prejudice can be presumed both on direct
review (in the nature of a structural error) and on collateral review (in the context of
a Strickland prejudice analysis).
7.

The petition in this case is currently due on January 21, 2020. A brief

extension of time is warranted to prepare and file a petition for a writ of certiorari in
this case.
8.

The additional time sought in this application is necessary because

Cropper recently retained Supreme Court counsel at the law firm of Latham &
Watkins LLP to represent him before this Court. An extension of time is appropriate
to enable those attorneys to become familiar with the extensive, complex record. In
addition, both existing counsel and new counsel have competing professional
commitments over this same time period, and other commitments during the
intervening holidays. The additional time will enable counsel to narrow the issues
presented to this Court.
9.

The extension requested would not work any meaningful prejudice on

any party. No date has yet been scheduled for Cropper’s execution.

4

10.

For these reasons, Cropper respectfully requests that the time for filing

a petition for a writ of certiorari in this case be extended to and including February
20, 2020.

December 31, 2019

Respectfully submitted,

TODDE.HALE
TODD HALE LAW PLLC
The Historic Palacio Ruelas
290 N. Meyer Avenue
Tucson, AZ 85701
(520) 256-1012
todd@toddhalelaw.com

MICHAEL . MEEHAN

Counsel of Record
LAW OFFICE OF MICHAEL MEEHAN
3938 E. Grant Road
No. 423
Tucson, AZ 85712
(520) 529-1969
mmeehan.az@msn.com

5

ATTACHMENT 1

Supreme Court
STATE OF ARIZONA
ROBERT BRUTINEL
Chief Justice

ARIZONA STATE COURTS BUILDING
501 WEST WASHINGTON STREET, SUITE 402
PHOENIX, ARIZONA 85007
TELEPHONE: (602) 452-3396

JANET JOHNSON
Clerk of the Court

October 23, 2019
RE:

STATE OF ARIZONA v LEROY D CROPPER
Arizona Supreme Court No. CR-17-0566-PC
Maricopa County Superior Court No. CR1997-003949

GREETINGS:
The following action was taken by the Supreme Court of the State
of Arizona on October 23, 2019, in regard to the abovereferenced cause:
ORDERED: Petition for Review of Order Dismissing Petition for
Post-Conviction Relief (Capital Case) = DENIED.
Justice Lopez and Justice Beene did not participate in the
determination of this matter.
Janet Johnson, Clerk
TO:
Lacey Stover Gard
Laura P Chiasson
Michael J Meehan
Todd E Hale
Leroy D Cropper, ADOC 091432, Arizona State Prison, Florence
Eyman Complex-Browning Unit (SMU II)
Dale A Baich
Timothy R Geiger
Amy Armstrong
kj

ATTACHMENT 2

SUPERIOR COURT OF ARIZONA
MARICOPA COUNTY
CR 1997-003949

Michael K. Jeanes, Clerk of Court
*** Electronically Filed ***
02/08/2017 8:00 AM

02/07/2017
CLERK OF THE COURT
E. Masis
Deputy

JUDGE M. SCOTT MCCOY

STATE OF ARIZONA

LAURA PATRICE CHIASSON

v.
LEROY D CROPPER (A)

MICHAEL J MEEHAN
CAPITAL CASE MANAGER
COURT ADMIN-CRIMINAL-PCR
VICTIM WITNESS DIV-AG-CCC

RULING
(PETITION DISMISSED/PCR MATTER/CAPITAL CASE)
The Court has reviewed the defendant’s nunc pro tunc Petition for PostConviction Relief1 (“NPT Petition”) filed 4/1/2016 nunc pro tunc 1/25/2015, the
Defendant’s Supplemental Rule 32 Claim (“Pro Per Claim”) filed 5/10/2015, the
State’s response filed 1/11/2016, and the Defendant’s reply filed 6/7/2016; and the
1

Defendant filed a Petition for Post-Conviction Relief on 1/25/2015, with exhibits
and declarations. The January petition (but not the attachments) was replaced by a
similarly-captioned Petition for Post-Conviction Relief, sub-captioned “Nunc Pro
Tunc Filing” filed simultaneously with Notice of Errata ib11/13/2015, followed by
a subsequent identically-captioned Petition for Post-Conviction Relief, subcaptioned “Nunc Pro Tunc Filing” filed 4/1/2016 (“NPT Petition”). The Court has
reviewed and compared the index of claims in the January 2015 and April 2016
petitions and has found the listings identical; the Court, therefore, addresses the
April 2016 pleadings (“NPT Petition”).
Docket Code 167

Form R000A

Page 1

SUPERIOR COURT OF ARIZONA
MARICOPA COUNTY
CR 1997-003949

02/07/2017

Supplement to Petition for Post-conviction Relief filed 8/20/2016, the
supplemental response filed 10/3/2016 and the supplemental reply filed
11/29/2016, as well as the court file. This is the defendant’s timely, first Rule 32
proceeding after the Arizona Supreme Court’s affirmed his convictions and death
sentence in State v. Cropper (Cropper III), 223 Ariz. 522, 225 P.3d 579 (2010).
PROCEDURAL HISTORY
The procedural history of State v. Cropper, CR1997-003949, is stated in
Cropper III:
Leroy D. Cropper pled guilty to first degree murder in 1999 for the 1997
killing of an Arizona Department of Corrections officer.1 A Maricopa
County Judge determined that Cropper should be sentenced to death for the
murder and an automatic appeal followed. See State v. Cropper (Cropper I),
205 Ariz. 181, 183–84 ¶ 12, 68 P.3d 407, 409 (2003). While the appeal was
pending, the Supreme Court decided Ring v. Arizona (Ring II), which held
that jurors, not judges, must find aggravating factors that expose defendants
to capital sentences. 536 U.S. 584, 609, 122 S.Ct. 2428 (2002). In response
to that decision, and subsequent legislation, this Court vacated Cropper's
sentence and remanded for resentencing under the appropriate statutes. State
v. Cropper (Cropper II), 206 Ariz. 153, 158 ¶ 24, 76 P.3d 424, 429 (2003).
On remand, a jury found two aggravating factors: Cropper had a prior
serious conviction and he committed the murder while incarcerated. See
Ariz. Rev. Stat. (“A.R.S.”) § 13–751(F)(2), (F)(7) (Supp.2009). That jury,
however, could not reach a verdict as to whether the killing was especially
cruel, A.R.S. § 13–751(F)(6), or whether death was the appropriate sentence.
A second jury was impaneled, see A.R.S. § 13–752(K), and concluded that
the murder was committed in an especially cruel manner and that death was
the appropriate punishment. This automatic appeal followed. Ariz. R. Crim.
P. 26.15, 31.2. We have jurisdiction under Article 6, Section 5(3) of the
Arizona Constitution and A.R.S. § 13–4031 (2001).
Docket Code 167

Form R000A

Page 2

SUPERIOR COURT OF ARIZONA
MARICOPA COUNTY
CR 1997-003949

02/07/2017

Cropper III, 223 Ariz. at 524, ¶¶ 1-2, 225 P.3d at 581 (footnotes omitted).
On direct appeal in Cropper I, our Supreme Court affirmed the convictions,
addressing the following guilt-phase issues on appeal (after finding the factsi) and
holding:
 The State provided adequate notice of a third aggravating factor, (F)(2)
“prior serious offense,” before Defendant entered a guilty plea to aggravated
assault in a separate case (CR2000-000245).
 Any challenge to the aggravated assault plea in CR2000-000245 must be
made in that case.
 Defendant provided no evidence sufficient to support his claim that the trial
judge should have recused himself from hearing the capital case for bias or
prejudice, simply because he presided over the aggravated assault
proceedings; and
 Based on the decisions in Ring I – III, the Court would address sentencing
issues in a future, separate opinion (i.e., in Cropper II).
On direct appeal in Cropper II, the Supreme Court vacated the judgeimposed death sentence. The Court held that a jury should determine whether a
“causal nexus” existed between defendant’s background and the murder sufficient
to support the “altered state/dissociative state” mitigation, which the sentencing
judge had rejected.
that:

In Cropper III, our Supreme Court addressed re-sentencing issues and held

 A change in the law permitting the state to retry the penalty phase in a
capital case when the first jury could not reach a decision did not violate the
state and federal Ex Post Facto Clauses;
Docket Code 167

Form R000A

Page 3

SUPERIOR COURT OF ARIZONA
MARICOPA COUNTY
CR 1997-003949

02/07/2017

 The prosecutor did not commit misconduct in argument relating to a victim's
suffering for “significant period of time” under cruelty aggravator,
suggesting the phrase be interpreted in “subjective terms,” by “what it means
to you”;
 Cruelty aggravator (that the officer experienced pain and that the defendant
knew or should have known he would) was established beyond a reasonable
doubt with Dr. Keen’s testimony;
 The defendant established by a preponderance of the evidence that he
suffered an abusive childhood;
 The defendant's allocution and related testimony regarding his remorse
would not be given substantial weight in reviewing propriety of death
sentence; and
 Considering the “quality and strength” of aggravating and mitigating factors,
a capital sentence was warranted based on significant aggravating factors
and comparatively minimal mitigation evidence.

PRELIMINARY MATTERS
CR2000-000245
Defendant attempts to base his claims “upon such filings [pleadings, orders,
transcripts, exhibits and other papers]” in the non-capital case of State v. Cropper,
CR2000-000245 (Victim: Antoine Jones). NPT Petition at 1. Defendant previously
attempted to consolidate that case with the capital case appeal. The Supreme Court
held that issues raised in that separate case were not properly before it. State v.
Cropper, 205 Ariz. 181, 185, ¶¶ 18-20, 68 P.3d 407, 411, supplemented, 206 Ariz.
153, ¶¶ 18-20, 76 P.3d 424 (2003). The Court notes that the judge in the noncapital case also ordered:
Docket Code 167

Form R000A

Page 4

SUPERIOR COURT OF ARIZONA
MARICOPA COUNTY
CR 1997-003949

02/07/2017

IT IS FURTHER ORDERED denying defendant’s request to
consolidate this matter with the capital post-conviction relief pending in
CR1997-003949(A).
ME dated 8/23/2012.
Similarly, this Court declines to consider the pleadings or address that
separate matter, CR2000-000245, in this capital post-conviction proceeding.
Sworn Statements
The Court has reviewed and considered the State’s Motion to Strike Juror
and Expert Declarations filed 7/26/2016, the Defendant’s response filed 8/24/2016,
and the State’s reply filed 9/2/2016.
Defendant attached declarations from “the jurors who heard Defendant’s
case” as Exhibits 33 through 37, in support of his claim regarding the mitigation
presentation. Reply to NPT Petition at 21-22. The Defendant claims that the
exhibits are not precluded because “the jurors were not asked to, nor did they,
declare anything about either their deliberations or their vote. Rather they provide
information about the kind of evidence which they would have found useful to
consider.” Reply to NPT Petition at 22-23, FN7.
Rule 24.1(d) prohibits the Court from considering “testimony or affidavit
….which inquires into the subjective motives or mental processes which led a juror
to assent or dissent from the verdict.”
The Court finds that asking the jurors about mitigation evidence that they
might have considered had it been presented necessarily implicates (1) their
deliberations, subjective motives and mental processes relating to the evidence
actually presented, considered, and evaluated upon which the juror (and jurors;
both singular and plural) actually deliberated; and (2) the basis of their assent or
dissent from the verdict, which in this defendant’s case was to impose the death
Docket Code 167

Form R000A

Page 5

SUPERIOR COURT OF ARIZONA
MARICOPA COUNTY
CR 1997-003949

02/07/2017

penalty (The question posed by PCR counsel was, essentially “would additional
evidence related to mental health have changed your vote?”).
The Court will consider the expert declaration of Garrett Simpson to the
extent that any specialized knowledge may be helpful to the Court in accordance
with Rules 702 and 703, Arizona Rules of Evidence.
Based on the above,
IT IS ORDERED granting the State’s Motion to Strike Juror and Expert
Declarations, as to the juror declarations (Exhibits 33-37) only.
CLAIMS FOR RELIEF
In his post-conviction pleadings the defendant raises numerous issues in
sixteen (16)2 numbered claims. The issues raised relate to ineffective assistance of
trial and/or appellate counsel (“IAC” claims) in connection with:
A.
B.
C.
D.
E.
F.
G.
H.

Mitigation (Claims I, II, XIV).
Inadvertent Disclosure of Defense Memoranda (Claims III, IV, V).
The (F)(6) Aggravating Factor (Claims VI, VII)
Future Dangerousness/Parole (Claims VIII, IX, XV).
Timing and Effect of Guilty Plea (Claims X, XII).
Victim Impact Statements (Claim XI).
Restitution (Claim XIII).
Death Penalty (Claim XVI).

2

Defendant raised Claims I - XIV in his nunc pro tunc petition; in his
supplemental petition, he added Claims XV and XVI, and supplemented Claims V,
IX, XIII and XIV. His exhibits remain attached to the 1/25/2015 petition. The
Court notes that the page numbers identified in the Supplement’s Table of
Contents at i-iii appears to differ from the actual pagination as to Claims XV, XIII
and XVI.
Docket Code 167

Form R000A

Page 6

SUPERIOR COURT OF ARIZONA
MARICOPA COUNTY
CR 1997-003949

I.
J.

02/07/2017

Cumulative Error and “Failure to Federalize.”
Resentencing by a Jury (Pro Per Claim).

For convenience, and hoping to avoid confusion, the Court follows this
organization and grouping in its analysis of Defendant’s claims in Section II,
below.
I.

Ineffective Assistance of Counsel – Legal Standards

The United States Supreme Court has established a two-prong test to
determine whether counsel was constitutionally effective in representing a
defendant:
1. “First, the defendant must show that counsel’s performance was
deficient.” Strickland v. Washington, 466 U.S. 668, 687 (1984).
2. Second, the defendant must demonstrate that prejudice resulted from
defense counsel’s performance. Id.
Failure to satisfy either prong is fatal. Id.
A.

Deficient Performance

Strickland requires that courts afford a strong presumption that counsel
rendered adequate assistance and exercised reasonable professional judgment in
assisting the defendant. Strickland, 466 U.S. at 690. “[T]he proper measure of
attorney performance remains simple reasonableness under prevailing professional
norms” and is itself an objective, two-part analysis. Id. at 688.
To prevail under Strickland’s highly deferential standard, a defendant must
“identify the acts or omissions of counsel” that were neither: (1) reasonable; nor
(2) based in strategy. Id. at 690; Murtishaw v. Woodford, 255 F.3d 926, 939 (9th
Docket Code 167

Form R000A

Page 7

SUPERIOR COURT OF ARIZONA
MARICOPA COUNTY
CR 1997-003949

02/07/2017

Cir. 2001). Actions or omissions by counsel that “might be considered sound trial
strategy” do not constitute ineffective assistance, and this Court must take into
account all of the attendant circumstances in making this determination. Strickland,
466 U.S. at 688–89 (quoting Michel v. Louisiana, 350 U.S. 91, 101 (1955)).
Additionally, this Court should “neither second-guess counsel’s decisions,
nor apply the fabled twenty-twenty vision of hindsight.” Campbell v. Wood, 18
F.3d 662, 673 (9th Cir. 1994) (en banc). Rather, as Strickland holds, this Court
must make “every effort [ ] to eliminate the distorting effects of hindsight, to
reconstruct the circumstances of counsel’s challenged conduct, and to evaluate the
conduct from counsel’s perspective at the time.” Id. at 689. Disagreements in trial
strategy will not support an ineffective assistance of counsel claim, “provided the
challenged conduct has some reasoned basis.” State v. Nirschel, 155 Ariz. 206,
208, 745 P.2d 953, 955 (1987).
In capital cases, as in applying Strickland generally, a court averts the effects
of hindsight by reviewing the case from the perspective that counsel had at the
time counsel made critical, strategic decisions and by giving a “heavy measure of
deference to counsel’s judgments.” Rompilla v. Beard, 545 U.S. 374, 381 (2005)
(quoting Strickland, 466 U.S. at 689, 691). The Supreme Court has made clear that
counsel in capital cases need only “make objectively reasonable choices.” Bobby v.
Van Hook, 558 U.S. 4, 9 (2009) (per curiam), quoting Roe v. Flores-Ortega, 528
U.S. 470, 479 (2000); see also Wiggins v. Smith, 539 U.S. 510, 533 (2003)
(Strickland does not even require counsel “to present mitigating evidence at
sentencing in every case.”). To evaluate the performance of counsel for Sixth
Amendment purposes, the relevant perspective is at the time of trial, or at the time
of sentencing, not afterwards when counsel did not succeed in avoiding a guilty
verdict or the death penalty.
B.

Prejudice Required

The second prong of the Strickland analysis requires a showing of prejudice.
Strickland, 466 U.S. at 691–92. The United States Supreme Court has held that
even when counsel has performed deficiently, it “does not warrant setting aside the
Docket Code 167

Form R000A

Page 8

SUPERIOR COURT OF ARIZONA
MARICOPA COUNTY
CR 1997-003949

02/07/2017

judgment of a criminal proceeding if the error had no effect on the judgment.” Id.
Indeed, Strickland “requires showing that counsel’s errors were so serious as to
deprive the defendant of a fair trial, a trial whose result is reliable.” Id.
Prejudice is not presumed. Jackson v. Calderon, 211 F.3d 1148, 1155 (9th
Cir. 2000). Rather, a petitioner must affirmatively prove actual prejudice—the
mere possibility that he may have suffered prejudice is insufficient. See Cooper v.
Calderon, 255 F.3d 1104, 1109 (9th Cir. 2001).
Regarding prejudice in capital cases, the petitioner must show:
[A] reasonable probability that, absent the errors, the sentencer—including
the appellate court, to the extent that it independently reweighs the
evidence—would have concluded that the balance of the aggravating and
mitigating circumstances did not warrant death.
Strickland, 466 U.S. at 695; see also Wong v. Belmontes, 130 S. Ct. 383, 390–91
(2009) (“Strickland places the burden on the defendant, not the State, to show a
‘reasonable probability’ that the result would have been different.”)
C.

ABA Guidelines

To the extent that Defendant cites the ABA Guidelines in support of his
claims, the Court finds the ABA Guidelines provide only guidance as to what may
constitute reasonable conduct; the guidelines do not impose absolute duties on
defense counsel. See Bobby v. Van Hook, 558 U.S. 4, 8 (2009) (“‘American Bar
Association standards and the like’ are ‘only guides’ to what reasonableness
means, not its definition.”). Additionally, the comments to Ariz. R. Crim. P. 6.8
expressly state that a deviation from the guidelines is not per se ineffective
assistance of counsel and, in fact, some of the guidelines may not even be
applicable to Arizona practice or to the circumstances of a particular case. Instead,
the standard for evaluating counsel’s performance continues to be that set forth in
Strickland.
Docket Code 167

Form R000A

Page 9

SUPERIOR COURT OF ARIZONA
MARICOPA COUNTY
CR 1997-003949

II.

02/07/2017

Analysis of Claims
A.

Ineffective Assistance – Mitigation (Claims I, II, XIV).

In Claim I Defendant alleges that trial counsel provided ineffective
assistance by “[ignoring or rejecting] the mental health and organic brain
dysfunction mitigation case, and its aggravation by prolonged solitary
confinement, instead of presenting a dangerous and unpersuasive mitigation case
of defendant’s life and behavior, without the guidance of the experts who were
available to explain defendant’s true situation and lack of moral culpability.”
The Arizona Supreme Court summarized and analyzed the 2000 mitigation
presentation this way:
Cropper offered several mitigating circumstances for the court's
consideration. The trial judge found only two mitigators, and he did not find
their weight sufficiently substantial to call for leniency.
The defense's main theory in mitigation was that the cell search caused
Cropper to relive childhood trauma, thereby forcing him into a dissociative
state. According to the defense, Cropper, as a child, was severely abused by
his stepmother. Cropper's father often witnessed the abuse and did not
intervene on behalf of his son. These past psychological traumatic
experiences allegedly matched the cell-search event closely enough to
trigger Cropper's reaction and subsequent conduct. Therefore, Cropper
became verbally confrontational with Officer Landsperger because he
believed that she, like his stepmother, did not respect him and his property.
While it was she who allegedly disrespected his property, Cropper held
Lumley ultimately responsible because he, like his father, should have
intervened.

Docket Code 167

Form R000A

Page 10

SUPERIOR COURT OF ARIZONA
MARICOPA COUNTY
CR 1997-003949

02/07/2017

The defense presented the testimony of three experts, including one
neurologist, to support its theory. One of the defense experts, Dr. Susan
Parrish, was questioned about Cropper's dissociative state and about why
Cropper would attack Officer Lumley rather than Officer Landsperger. Dr.
Parrish answered:
Leroy was in a dissociative state and was flashing back to what
happened in his childhood. Because it's his father that he has the
hatred for. He, he doesn't-he does not blame his stepmother. I mean in
his, in his view, you know, there's a principle here. This is a man, you
know, a father with a-an architect father here is standing by and
allowing an injustice, that the person doing it is not recognizing
because they have their own, own set of problems. So it's the person
who allows **429 *158 this to go on and knows that it's wrong that is
the focus of his anger.
....
[E]arly on he felt very close to his father. And it's possible that that
sense of closeness that his father ... from his standpoint betrayed, is
what created the foundation for such hate towards a male authority
figure. And, and sort of dismissing the role of the female.
The State presented rebuttal evidence in the form of testimony by
psychologist Dr. Jess Miller. Dr. Miller evaluated Cropper and concluded
that he did not commit the murders in an “altered state,” as theorized by Dr.
Parrish. Instead, in Dr. Miller's opinion, Cropper suffers from a sociopathic
personality disorder. Dr. Miller concluded that Cropper manipulated the
psychological evaluations.
Cropper II, 206 Ariz. at ¶¶ 19-22, 76 P.3d at 428–29.
In the jury resentencing hearings, trial counsel did not call experts.
Whether to call an expert is a strategic decision. State v. Broughton, 156 Ariz. 394,
752 P.2d 483 (1988). Trial counsel is presumptively competent, and in this case
Docket Code 167

Form R000A

Page 11

SUPERIOR COURT OF ARIZONA
MARICOPA COUNTY
CR 1997-003949

02/07/2017

made a reasonable strategic decision not to call experts, whose testimony would
have been vulnerable to damaging rebuttal.3

The Court notes that the State’s 2000 sentencing rebuttal was both vigorous
and portending. Illustratively:
3

Dr. Parrish [Derello’s own expert] allows that Cropper would know
right from wrong in his “manic, plotting stage” and in his cover-up
stage, but maintains that when he actually murdered Lumley he would
not. By all accounts the murder took less than five minutes. This
Court is therefore presented with a man who intended to kill, plots to
kill, does kill, then covers up his crime and is in all respects
responsible for his conduct but for the five minutes spent in the CD
control room alone with his victim.
Not surprisingly this scenario is refuted by [State’s expert] Dr.
Miller….Dr. Miller notes that at the time of the offense, Cropper was
not suffering from a mental illness, but rather a personality disorder,
knew right from wrong, and could conform his conduct to the
requirements of the law.
On the issue of PTSD, Dr. Miller testified that if properly triggered,
Cropper would have experienced an adrenaline rush and would have
reacted impulsively, becoming immediately violent; instead, Cropper
murdered for revenge, planning the death of Officer Lumley over a
period of hours.
Further, because attacking Officer Lumley involved four or five
complicated parts of a plan involving other persons and certain
arrangements, Dr. Miller is certain Cropper was not in an altered state
of consciousness during the killing. Additionally, had Cropper really
been in this supposed dissociative state, he would have been
overwhelmed with remorse and grief once he found out what he had

Docket Code 167

Form R000A

Page 12

SUPERIOR COURT OF ARIZONA
MARICOPA COUNTY
CR 1997-003949

02/07/2017

Rather, trial counsel focused on child abuse and rage at the first resentencing
hearing (the 2006 hung jury), adding more positive evidence of Defendant’s
remorse and rehabilitation at the second jury-resentencing. Trial counsel made
reasonable strategic decisions. Argument to the contrary merely indulges in “the
fabled twenty-twenty vision of hindsight.” Campbell v. Wood, 18 F.3d at 673.
The Court finds that Defendant presented mental health evidence to a trial
judge, and that it was contested by the State with adverse admissions of the defense
experts, the opinions of its own expert and strong argument. Had mental health
evidence been presented to the resentencing jury, the State likely would have
cross-examined the defense experts with “other acts” and writings of Defendant
that would not have been helpful nor would it have changed the verdict of death.
Claim I is therefore not colorable.
In Claim II Defendant alleges that trial counsel provided ineffective
assistance by “[presenting] the ‘full Monty’ mitigation case that was so broadlydefined and presented that it necessarily broadened the scope of the ‘rebuttal’
evidence the state was allowed to present, resulting in the prejudicial admission of

done. Instead, Cropper’s immediate reaction was “I left the knife in
the mother fucker’s throat.”
Finally, according to Doctors Parrish and Miller, one experiencing a
dissociative episode would have a fragmented or no memory of the
event. According to Dr. Parrish, you don’t get back information when
in an altered state. But testifying under oath in State v. Kyzar and
Long on September 2, 1999, Cropper gave a chilling, detailed account
of every step of the murder [that occurred] in the CD control room.
State’s Response to Defendant’s Mitigation (filed 10/10/2000), at 10 – 11.

Docket Code 167

Form R000A

Page 13

SUPERIOR COURT OF ARIZONA
MARICOPA COUNTY
CR 1997-003949

02/07/2017

much evidence of [the defendant’s] subsequent bad acts and alleged ‘future
dangerousness.’”
Defendant’s premise – i.e., that had trial counsel made a narrower
mitigation presentation, certain harmful evidence would not have been admitted –
is dubious. By the time of Defendant’s resentencing in 2008, courts interpreted
expansively the scope of rebuttal to mitigation, to include “any evidence that
demonstrates that the defendant should not be shown leniency.” A.R.S. §13751(G).4
4

See also A.R.S. §13-752(G):

“At the penalty phase, the defendant and the state may present any evidence
that is relevant to the determination of whether there is mitigation that is
sufficiently substantial to call for leniency. In order for the trier of fact to
make this determination, regardless of whether the defendant presents
evidence of mitigation, the state may present any evidence that demonstrates
that the defendant should not be shown leniency including any evidence
regarding the defendant’s character, propensities, criminal record or other
acts.”
See also, State v. Pandeli, 215 Ariz. 514, ¶¶ 52-53, 161 P.3d 557 (2007)
(upholding admission of evidence of a murder in a separate incident as relevant to
whether defendant deserved leniency); State v. Armstrong, 218 Ariz. 451, 461 ¶ 38,
189 P.3d 378, 388 (2008):
Armstrong also suggests that the language in A.R.S. § 13–703.01(G)
allowing the State to “present any evidence that demonstrates that the
defendant should not be shown leniency” should be interpreted with
Gulbrandson in mind, such that the state's right to present rebuttal evidence
in the penalty phase is limited to rebutting specific mitigating circumstances
advanced by the defendant. Armstrong is misguided for two reasons. First,
A.R.S. § 13–703.01(G) regulates the admission of evidence at the penalty
phase; everything Armstrong references was introduced during the

Docket Code 167

Form R000A

Page 14

SUPERIOR COURT OF ARIZONA
MARICOPA COUNTY
CR 1997-003949

02/07/2017

The Court finds that the primary difference between Defendant’s 2006 and
2008 mitigation cases was asking the 2008 jury to consider additional evidence (of
Defendant’s remorse and rehabilitation. See RT 4/25/2008 at 8-9. Either or both
had the potential to present the Defendant in a more positive and humane light, and
to suggest to the jury that leniency might be appropriate. This is a strategic
decision, and trial counsel is presumed to provide effective assistance.
The procedural context of the decision also supports the reasonableness of
defense counsel’s decision. The jury in 2006 hung on the (F)(6) aggravator. Yet
that same group did not hand down a life sentence on the mitigation then
presented. Defense counsel had to consider the possibility that the next jury would
find the (F)(6) aggravator, and that the 2006 mitigation evidence would not suffice.
Trial counsel’s decision to include evidence of remorse and progress toward
rehabilitation was a reasonable strategic decision – not deficient performance.
Further, there was no prejudice by admission of any “other act” and other
writings in State’s rebuttal; the rebuttal would have been admissible to cross-

aggravation phase. Indeed, the State offered little rebuttal evidence during
the penalty phase. Armstrong fails to identify any evidence admitted in
rebuttal that went outside the scope of A.R.S. § 13–703.01(G).
Second, we have made clear that the underlying facts of a murder are
relevant during the penalty phase because they tend to show whether the
defendant should be shown leniency. State v. Roque, 213 Ariz. 193, 220–21
¶ ¶ 107, 110, 141 P.3d 368, 395–96 (2006). Thus, to the extent Armstrong
argues that the jury was prejudiced during the penalty phase by evidence
describing details of his crime that may not have been especially relevant to
the aggravating circumstances, that argument has no merit.
State v. Armstrong, 218 Ariz. 451, 461, ¶¶ 37-38, 189 P.3d 378, 388 (2008).
Docket Code 167

Form R000A

Page 15

SUPERIOR COURT OF ARIZONA
MARICOPA COUNTY
CR 1997-003949

02/07/2017

examine any testifying experts in response to mental health mitigation, had it been
presented as Defendant now suggests should have been done.5
The Court finds Claim II not colorable.
In Claim XIV Defendant alleges that trial counsel provided ineffective
assistance by failing to “do a thorough and competent social history in [the
defendant’s] case, both because there were no defense team members possessing
the training and experience required to screen individuals for the presence of
mental or psychological disorders or impairments, and because counsel did an
incomplete social history investigation.”6

5

The Court further notes that the Court in 2008 was adamant that the jury
would not learn “…that he was subject to the death penalty prior to this
proceeding” (RT 4/24/2008 at 11); and also precluded testimony about the facts
underlying the (F)(2) aggravating factor. For example, the State wanted to ask Ms.
Bolinger about defendant: “Are you aware of your client taking the cell door off of
another inmate’s cell while he was in a custodial setting?” to establish that “in a
very secure facility, he took the door off another inmate’s cell” to counter the “give
him life and he’ll be secure” argument…Court continued to preclude use of
Antoine Jones incident. (RT 4/24/2008 at 1-7)
6

Defendant further claims that “[p]ost-conviction counsel and mitigation
investigators have not had sufficient time to do a complete social history
investigation.”
The Court finds that PCR counsel was appointed 4/29/2013; had the benefit of
three Arizona Supreme Court decisions broadly outlining the mitigation presented
either to the judge or to a jury; had the benefit of any underlying transcripts that
served as the basis for the Supreme Court’s summary of mitigation; filed this claim
in January 2015, and again in April 2016 nunc pro tunc to January 2015 repeated
the claim of “insufficient time.” Three years after being appointed and a year and a
half after first making the claim of “insufficient time,” Defendant (and PCR
counsel) filed a supplement in August 2016 repeating the claim of insufficient
Docket Code 167

Form R000A

Page 16

SUPERIOR COURT OF ARIZONA
MARICOPA COUNTY
CR 1997-003949

02/07/2017

In his Supplement to Claim XIV (at 18-29), the Defendant alleges that “the
insufficient and constitutionally ineffective mitigation investigation by the trial
team [prejudiced him].”
The Court finds that defense counsel consulted with appropriate mental
health experts to obtain expertise absent from the team. The Court further finds
that had counsel completed an extensive and exhaustive social history
investigation, such evidence would not have been persuasive, because “childhood
troubles deserve little value as a mitigator for ... murder[ ] ... committed at age
thirty-three,” as Cropper was at the time of this offense. Cropper III, 223 Ariz. at ¶
30, 225 P.3d at 586.
The Court finds that trial counsel did not perform deficiently nor did
Defendant suffer prejudice in connection with the social history/mental health
mitigation presentation. The Court finds that sufficient material was available to
trial counsel to establish the “abusive childhood” mitigator without expert
testimony; that a decision to present mental health evidence rather than
“rehabilitation/remorse” evidence would not have changed the admissible rebuttal.
Accordingly, the Court finds Claim XIV is not colorable.
B.
Ineffective Assistance – Inadvertent Disclosure of Defense
Memoranda
(Claims III, IV, V).
“Sometime in 2006” trial counsel permitted the prosecutor to review the
defense mitigation materials in advance of the 2006 re-sentencing. RT 4/25/2008 at
5; see also Id. at 8.
Defendant describes the contents of the notes as including:

time.” Twenty years and three mitigation presentations later, the Court finds PCR
counsel’s “insufficient time” claim not to be viable.
Docket Code 167

Form R000A

Page 17

SUPERIOR COURT OF ARIZONA
MARICOPA COUNTY
CR 1997-003949

02/07/2017

[Defendant’s] detailing of the crime, including critical details relating
directly to the contested issue of the duration of [the victim’s] conscious
suffering, upon which the especially cruel aggravator turned. They also
reveal the most intimate and personal family information about [defendant],
as well as the otherwise unknown fact that while in the Navy he had the
nickname “Lucky” because he did not get caught for breaking rules.
Supplemental Petition at 7.
Trial counsel became aware of the disclosure and immediately sought a
mistrial. The State indicated that the materials were turned over voluntarily in
connection with the 2006 sentencing mitigation, and that any information in the
notes “has already come out in this trial through other sources.” RT 4/25/2008 at 8.
The State indicated that it had not used the notes. The Court framed the issue as
“whether, in fact, there has been a breach of the attorney/client privilege sufficient
to warrant a motion for mistrial,” and concluded that “there are a number of things
I can put into place to protect us from that…” RT 4/25/2008 at 10. The Court
directed that the notes were to be marked as an exhibit to be sealed and filed with
the Clerk and not disclosed to the jury; the Court further directed that the notes
were not to be used in cross-examining the witness, Mr. “Abernathy”.7 RT
4/25/2008 at 11.
As to Claims III, IV and V, the Court finds that trial counsel disclosed
protected client interviews – perhaps intentionally in connection with the 2006
sentencing or inadvertently at that time and in connection with the 2008
resentencing. The Court finds that providing such materials for other than a
carefully-considered strategic reason would constitute deficient performance.
In Claim III Defendant alleges that trial counsel provided ineffective
assistance “by disclosing to the state numerous memoranda of their interviews with
7

The trial transcript refers to the investigator’s last name as “Abernethy” while the
PCR pleadings refer to “Abernathy.” The Court adopts the PCR version,
Abernathy, other than when quoting from trial materials.
Docket Code 167

Form R000A

Page 18

SUPERIOR COURT OF ARIZONA
MARICOPA COUNTY
CR 1997-003949

02/07/2017

[the defendant], which were privileged attorney/client communications and
constituted work product.”
Yet, and though having access to both the notes and the trial transcripts,
Defendant identifies only a single alleged misuse of the inadvertently disclosed
materials – i.e., namely, that the prosecution improperly used the privileged
information to cross examine a mitigation specialist, who acknowledged defendant
had been given the nickname “Lucky” during his military service.
Defendant was so nicknamed for his ability to escape detection for
infractions, something Defendant claims the State discovered in the notes. Even if
true, the Court finds the material insufficiently substantial to warrant a mistrial; the
nickname is unrelated to the crime, provides somewhat minor background
information only and was not unduly prejudicial.
Although Defendant claims that the trial court permitted the State to call the
defense investigator, Mr. Abernathy, in its rebuttal case, based on “waiver of
privilege” due to the disclosure of the notes, the record demonstrates otherwise.
As the record demonstrates – the Court was careful to advise counsel to build a
foundation unrelated to the notes for any statements:
…make sure that the statements were previously testified to by Miss
Bolinger [the mitigation specialist, called by the defense in its case-in-chief].
And [that] he’s only confirming or affirming what has already been
disclosed by Miss Bolinger. And if that’s the case, then the objection is
overruled.
If it’s not the case, and was a separate and distinct conversation that Mr.
Abernethy had with the defendant, then I don’t believe that the defendant
has waived any privilege he may have with respect to conversations which
were held between Mr. Abernethy, and the defendant, and his counsel in a
separate and distinct conversation. Thank you.
RT 4/24/2008 at 103-104.
Docket Code 167

Form R000A

Page 19

SUPERIOR COURT OF ARIZONA
MARICOPA COUNTY
CR 1997-003949

02/07/2017

The Court finds that Defendant has not demonstrated prejudice from the
disclosure of interview notes relating to conversations between counsel and
himself. Claim III therefore is not colorable.
In Claim IV Defendant alleges that trial counsel provided ineffective
assistance by “failing to argue that the State’s failure to return the inadvertently
disclosed materials and the State’s use of such materials during the trial were
prosecutorial misconduct in violation of E.R. 4.4(B) and the inadvertent disclosure
doctrine.”
Arizona courts have addressed the obligations of the parties in connection
with inadvertently disclosed materials:
When a party has inadvertently disclosed privileged information, Rule
26.1(f)(2) outlines the proper procedure for claiming privilege and resolving
any dispute.2 The party who claims that inadvertently disclosed information
is privileged should “notify any party that received the information of the
claim and the basis for it.” Ariz. R. Civ. P. 26.1(f)(2). Once the receiving
party has been notified of the privilege claim, that party “must promptly
return, sequester, or destroy the specified information ... and may not use or
disclose the information until the claim is resolved.” Id.; accord Fed. R. Civ.
P. 26(b)(5)(B). Our rule, like its federal counterpart, “is intended merely to
place a ‘hold’ on further use or dissemination of an inadvertently produced
document that is subject to a privilege claim until a court resolves its status
or the parties agree to an appropriate disposition.” Ariz. R. Civ. P. 26.1(f)(2)
State Bar committee's note to 2008 amend.
Lund v. Myers, 232 Ariz. 309, 311, ¶ 11, 305 P.3d 374, 376 (2013).
Upon becoming aware of his disclosed interview notes, trial counsel
acknowledged his role, sought a mistrial, and pursued sealing and the preclusion of
the use of the notes by the State. Learning mid-trial of the State’s possession of
certain notes, trial counsel reacted quickly and located and cited People v.
Docket Code 167

Form R000A

Page 20

SUPERIOR COURT OF ARIZONA
MARICOPA COUNTY
CR 1997-003949

02/07/2017

Knippenberg, 362 N.E. 2d 681 (1977),8 in support of his motion for mistrial,
arguing “where an investigator inadvertently, or somehow, turned over
attorney/client notes. And those notes were used to later impeach the defendant,
who was on the witness stand….The prejudice to the defendant could not be
overcome. And even though there wasn’t an objection at trial, it was overturned.”
RT 4/25/2008 at 6-7. Defendant sought a mistrial, which the trial court denied. The
Court finds that Knippenberg, an Illinois decision, although not establishing a per
se determination of prejudice, provided a strong and quickly-located argument in
support of the mistrial motion.
The record further indicates that the State appears to have understood the
materials to have been voluntarily disclosed in connection with 2006 mitigation;
trial counsel’s reaction in 2008 suggests the disclosure was inadvertent. Based on
trial counsel’s avowal that the notes were not intended to be shared with the State,
the State determined not to question the witness about a particular conversation.
RT 4/24/2008 at 117. The day after learning of the inadvertent disclosure, the trial
court immediately sealed the notes for filing with the Clerk, directed that the
contents not be used, and accepted the avowals of both counsel (“…just as you
[referring to trial counsel] have claimed it wasn’t a strategy, [the prosecutor] has
claimed he didn’t use the notes for any purpose in the cross-examination of Mr.
Abernethy. I’m willing to take both counsel – I see no contradicting evidence one
way or another, as I have listened to the testimony from yesterday and the
preceding testimony, as well.” RT 4/25/2008 at 12), denying the mistrial and
concluding, “…I intend to allow the continuation of this matter. I don’t see that it –
I think any prejudice or harm has been forestalled, by virtue of our having
addressed the issue, and that’s that. We’ll move on from here.” RT 4/25/200 at 12.

8

Knippenberg held that the use of confidential materials for impeachment of
defendant, whose version of events was contradicted by the materials, was
prejudicial, constituted ineffective assistance in violation of the Sixth Amendment
and violated Due Process right to a fair trial, and was not harmless as it may have
contributed to the conviction.
Docket Code 167

Form R000A

Page 21

SUPERIOR COURT OF ARIZONA
MARICOPA COUNTY
CR 1997-003949

02/07/2017

The Court finds that even had trial counsel claimed a breach of E.R. 4.4(B),
the trial court would have denied the request for mistrial for reasons similar to
those stated above. Claim IV is therefore not colorable.
In Claim V Defendant alleges that appellate counsel provided ineffective
assistance by “failing to present a claim that the State’s possession, retention, and
use of defense counsel’s inadvertently disclosed privileged notes was prosecutorial
misconduct in violation of [the defendant’s] 6th, 8th and 14th Amendment and
analogous Arizona constitutional rights [and E.R. 4.4(B).”
Even assuming prosecutorial misconduct occurred at trial, to constitute a due
process violation, the misconduct must have “so infected the trial with unfairness
as to make the resulting conviction a denial of due process.” Darden v.
Wainwright, 477 U.S. 168, 181 (1986) (internal quotations and citations omitted);
Donnelly v. DeChristoforo, 416 U.S. 637, 643 (1974); State v. Hughes, 193 Ariz.
72, 79, ¶ 26, 969 P.2d 1184, 1191 (1998). “Reversal on the basis of prosecutorial
misconduct requires that the conduct be ‘so pronounced and persistent that it
permeates the entire atmosphere of the trial.’ ” State v. Atwood, 171 Ariz. 576, 611,
832 P.2d 593, 628 (1992) (quoting United States v. Weinstein, 762 F.2d 1522, 1542
(11th Cir.1985) (quoting United States v. Blevins, 555 F.2d 1236, 1240 (5th
Cir.1977))); see also State v. Lee, 189 Ariz. 608, 616, 944 P.2d 1222, 1230 (1997)
(cited in State v. Hughes, 193 Ariz. 72, 79, ¶ 26, 969 P.2d 1184, 1191 (1998)).
The Court accepted the avowals of counsel regarding the inadvertence of the
disclosure (from defense trial counsel) and the non-use of the materials (from the
prosecutor). The Defendant provides no support for his claim that the State used
privileged defense material, other than possibly in connection with discovery of the
Defendant’s nickname, Lucky. The Court finds no evidence that the State utilized
the materials “detailing… the crime, including critical details relating directly to
the contested issue of the duration of [the victim’s] conscious suffering, upon
which the especially cruel aggravator turned. They also reveal the most intimate
and personal family information about [Defendant]” in connection with securing
either the aggravation or the penalty phase verdicts. The Court further finds no
Docket Code 167

Form R000A

Page 22

SUPERIOR COURT OF ARIZONA
MARICOPA COUNTY
CR 1997-003949

02/07/2017

evidence that a claim of prosecutorial misconduct would have been supported by
the record on appeal
The Court finds that a claim of prosecutorial misconduct is speculative at
best. The Court finds no evidence that the State used the materials in a manner that
deprived Defendant of a fair trial or sentencing, once notified of the inadvertent
disclosure or even prior to notification. The Court finds neither deficient
performance nor prejudice. Thus, Defendant has not presented a colorable claim of
ineffective assistance of appellate counsel in connection with Claim V.
In his Supplement to Claim V: [at 1-13], Defendant alleges that “appellate
counsel was ineffective for failing to present a claim that the State’s retention and
use of the privileged notes violated [defendant’s] 6th and 14th Amendment and
analogous Arizona constitutional rights” and in failing to “federalize” the claim.
Defendant claims that he was prejudiced because the notes formed the basis
of waiver of privilege, permitting the State to call the defense investigator
(Abernathy) in rebuttal, after Defendant called his mitigation witness to testify.
RT 4/24/2008 at 82-89. The prosecution argued initially that disclosure supported
calling Abernathy,9 but trial court permitted examination based on mitigation
expert’s testimony and cautioned that the now-sealed notes could not be the basis
for State’s questions. The trial court initially stated:
My ruling is that any materials that have been disclosed as communications
between Mr. Abernethy and the defendant will be subject to crossexamination or examination by Mr. Abernethy. Anything that hasn’t been
disclosed won’t be.
Id. at 89. The trial court later clarified that - as to conversations with the Defendant
- if Ms. Bolinger (the mitigation specialist) had previously testified to the matter in
the defense mitigation case, then any privilege had been waived; however, if
9

Abernathy had previously been sworn during the defense mitigation presentation,
to introduce video interviews of Defendant’s sister, Leanne. RT 4/21/2008 at 5-9.
Docket Code 167

Form R000A

Page 23

SUPERIOR COURT OF ARIZONA
MARICOPA COUNTY
CR 1997-003949

02/07/2017

Abernathy had a separate conversation with the defendant, the privilege remained.
RT 4/24/2008 at 108.
Thereafter, the trial court took precautions to avoid disclosing privileged
material to the jury, based upon representations of counsel that disclosure of notes
was inadvertent and that the State had not used the notes. The trial court further
determined there was not “any prejudice or harm” occurred as the notes were not
used in the cross-examination of Mr. Abernathy. RT 4/25/2008 at 4-11; 12.
The Court finds no prejudice because the trial court permitted Abernathy to
testify not because of any “waiver through discovery” attributable to the
inadvertent disclosure of privileged materials but rather because of a “waiver
through testimony of a witness, Ms. Bolinger, the mitigation specialist, called by
the defense.” The trial court properly instructed the prosecutor, sealed the
materials, and secured assurances that materials had not been nor would they be
used.
The Court further finds that Defendant has not provided, other than
speculation: any documentation that the disclosed materials produced directly or
indirectly any significant evidence used at trial (Reply to NPT Petition at 52-53);
any support for the claim the materials were improperly used in connection with
sentencing (see Reply to NPT Petition at 46); or any support for the claim that
privileged information was used to resolve the “hotly contested” (F)(6) aggravating
factor (Supplemental Reply at 6).
The Court further finds the conclusion that prejudice occurred because the
“2006 hearing – which was not impacted by the foregoing, prejudicial privileged
information – ended in a hung jury” (Supplemental Reply at 6-7) untenable. There
is no evidence the materials were used, or contributed to the verdict. The
prosecutors denied using information to examine witnesses. The conclusion that
the materials were not used in 2006 (albeit disclosed before that sentencing) but
must have been used in 2008 because jury did not hang is a non sequitur.
The Court finds Claim V not to be colorable.
Docket Code 167

Form R000A

Page 24

SUPERIOR COURT OF ARIZONA
MARICOPA COUNTY
CR 1997-003949

02/07/2017

C.
Ineffective Assistance – The (F)(6) Aggravating Factor (Claims
VI, VII).
In Claim VI Defendant alleges that appellate counsel provided ineffective
assistance by “failing to present a claim challenging the constitutionality of the
‘especially cruel’ aggravator because it fails adequately to narrow the class of
murderers eligible for the death penalty in violation of the 8th and 14th
Amendments to the United States Constitution and analogous Arizona
constitutional provisions,” and by failing to “federalize” the claim.
“Cruelty exists if the victim consciously experienced physical or mental
pain prior to death and the defendant knew or should have known that
suffering would occur.” State v. Trostle, 191 Ariz. 4, 18, 951 P.2d 869, 883
(1997) (citation omitted). The evidence demonstrates that Cropper sought
out a violent confrontation. The struggle lasted up to two minutes, he
acknowledged. Further, the medical testimony regarding the victim's wounds
and blood loss demonstrates that the officer suffered physical pain. See State
v. Bearup, 221 Ariz. 163, 172 ¶ 49, 211 P.3d 684, 693 (2009) (cruelty
established when assault lasted between sixty and ninety seconds and
resulted in substantial blood loss); State v. Amaya–Ruiz, 166 Ariz. 152, 177,
800 P.2d 1260, 1285 (1990) (evidence of struggle demonstrated cruelty).
Dr. Philip Keen, former chief medical examiner of Maricopa County and a
specialist in forensic pathology, testified in detail on the nature of the attack.
He explained that the wounds inflicted would have been particularly painful
because of the “higher concentration of nerves” in the neck; the officer
would have felt a “stinging, burning kind of pain.”
Keen also testified that the officer suffered a number of “penetrating
injuries.” The deeper of these cuts severed his thyroid gland, the jugular
vein, and his chest cavity and lung. The officer bled to death as a result of
these injuries. The officer did not, however, experience significant arterial
damage from the attack because his aorta and carotid arteries were not
Docket Code 167

Form R000A

Page 25

SUPERIOR COURT OF ARIZONA
MARICOPA COUNTY
CR 1997-003949

02/07/2017

damaged. Thus, the time it would have taken to lose consciousness was the
time it took him to bleed out, Keen confirmed. Based on the injuries, the
officer would have “progressively” lost consciousness. Keen testified that it
would have taken “minutes” for him to lose consciousness based on the
amount of blood found in his chest cavity and at the scene. Despite
Cropper's contentions, Keen concluded that it was unlikely the officer would
have lost consciousness in less than a minute. Taken together, these facts
establish beyond a reasonable doubt that the officer consciously suffered
physical pain and Cropper knew or should have known he would experience
such pain.
Cropper III, 223 Ariz. at ¶¶ 18-20, 225 P.3d at 584–85.
The Court finds that the narrowing function of the (F)(6) aggravating factor
has been upheld. In Walton v. Arizona, 497 U.S. 639, 110 S. Ct. 3047 (1990), the
United States Supreme Court held the "especially heinous, cruel, or depraved"
language is facially vague, but stated that the Court had given adequate "substance to
the operative terms" for the construction of the aggravating circumstance to meet
constitutional requirements. Id. at 654, 110 S. Ct. at 3057. The Court specifically
held in Gretzler that the aggravating circumstance of "especially heinous, cruel, or
depraved" must separate particular crimes from the "norm" of first degree murders,
or the factor will not be upheld. Gretzler, 135 Ariz. at 53, 659 P.2d at 12. Post-Ring,
the Arizona Supreme Court has continued to reject vagueness challenges to the (F)(6)
factor where the jury imposed death. See State v. Guarino, 238 Ariz. 437, ¶¶39-40,
362 P.3d 484 (2015) (noting previous rejection of argument); State v. Tucker, 215
Ariz. 298, ¶28, 160 P.3d 177 (2007) (“The (F)(6) aggravator is facially vague but
may be remedied with appropriate narrowing instructions, whether a judge or a
jury makes the sentencing determination.”); State v. Anderson, 210 Ariz. 327,
¶¶109-14, 111 P.3d 369, supplemented by 211 Ariz. 59, 116 P.3d 1219 (2005)
(observing that the (F)(6) aggravator was sufficiently narrowed by jury instructions
that “gave substance to the terms ‘cruel’ and ‘heinous or depraved’ in accordance
with our case law narrowing and defining those terms”).

Docket Code 167

Form R000A

Page 26

SUPERIOR COURT OF ARIZONA
MARICOPA COUNTY
CR 1997-003949

02/07/2017

This Court can find no support for Defendant’s position in Arizona or
federal case authority. Defendant’s argument incorrectly assumes that the (F)(6)
aggravator has the same purpose in both capital and non-capital sentencing. These
two are different and therefore comparing them is irrelevant for purposes of Eighth
Amendment analysis. This was explained by the Arizona Supreme Court in State v.
Martinez:
The Court finds that each challenge to the death penalty has been rejected by
appellate courts. The Court finds that the claims are meritless, based on the
state of the law at the time of the defendant’s trial proceedings, and as
conceded by Defendant who acknowledges the existence of – and cites –
authority rejecting each of the claims.
We also note that determining aggravating factors in a capital case serves a
somewhat different purpose than that served by determining aggravating
factors in non-capital cases. The Eighth Amendment to the United States
Constitution requires that aggravating factors in capital cases must
“genuinely narrow the class of persons eligible for the death penalty and
must reasonably justify the imposition of a more severe sentence on the
defendant compared to others found
guilty of murder.” Zant v. Stephens, 462 U.S. 862, 877, 103 S. Ct 2733
(1983). In non-capital sentencing, however, aggravating factors serve only to
establish the range of sentence and do not involve Eighth Amendment
issues.
Martinez, 210 Ariz. 578, 585 n.5, 115 P.3d 618 (2005).
The fact that (F)(6) can be used to determine a non-capital sentence does not
mean that it no longer serves its narrowing function in the capital sentencing
scheme
The Court finds that appellate counsel did not perform deficiently by failing to
argue that the (F)(6) aggravating factor fails to perform the narrowing function
adequately nor was Defendant prejudiced by having been found to be death-eligible,
Docket Code 167

Form R000A

Page 27

SUPERIOR COURT OF ARIZONA
MARICOPA COUNTY
CR 1997-003949

02/07/2017

at least in part,10 by the jury finding that the constitutional (F)(6) aggravator applied
to him.
Claim VI is therefore not colorable.
In Claim VII Defendant alleges that appellate counsel provided ineffective
assistance by “failing to ‘federalize’ and argue that the trial court
unconstitutionally allowed the state to argue that the amount of the victim’s
conscious suffering required to establish the ‘especially cruel’ aggravator was a
‘subjective’ standard subject to the whims of each juror and thus failed to
objectively narrow that factor in violation of the 8th and 14th Amendments to the
United States Constitution and analogous Arizona constitutional provisions.”
The Court finds that appellate counsel raised the issue of the prosecutor’s
argument on appeal, as prosecutorial misconduct. Our Supreme Court held:
Cropper next contends that the prosecutor committed misconduct in his
arguments regarding the (F)(6) cruelty aggravator. At Cropper's request, the
trial court instructed the jury that, to establish the cruelty prong of the (F)(6)
aggravator, the State was required to show a victim's suffering “existed for a
significant period of time.”6 (Emphasis added). In their arguments, both
defense counsel and the prosecutor attempted to explain to the jury what
constituted a “significant period of time.” The defense objected after the
prosecutor told jurors that the standard was “subjective,” suggesting that the
phrase should be defined by “what that means to you.” The trial court
overruled the objection, and the prosecutor again explained the “significant
period of time” language in “subjective” terms. The defense ultimately
moved for a mistrial, which was denied.
The prosecutor's remarks must be assessed in context. The instruction
Cropper requested, to which the State objected, differed from (F)(6) cruelty
10

The Defendant was rendered death-eligible based on the jury’s finding of the
(F)(7) and (F)(2) aggravators.
Docket Code 167

Form R000A

Page 28

SUPERIOR COURT OF ARIZONA
MARICOPA COUNTY
CR 1997-003949

02/07/2017

instructions this Court has previously approved. Our cases make clear that
an (F)(6) instruction is sufficient if it requires the state to establish that “ ‘the
victim consciously experienced physical or mental pain and the defendant
knew or should have known that’ the victim would suffer.” State v. Tucker,
215 Ariz. 298, 310–11 ¶¶ 31–33, 160 P.3d 177, 189–90 (2007) (alterations
removed) (quoting State v. Anderson, 210 Ariz. 327, 352 n. 18 ¶ 109, 111
P.3d 369, 394 n. 18 (2005)). No set period of suffering is required. See State
v. Soto–Fong, 187 Ariz. 186, 203–04, 928 P.2d 610, 627–28 (1996)
(rejecting any “bright-line, arbitrary temporal rule” to determine whether
cruelty has been established). An instruction consistent with this standard
sufficiently narrows the (F)(6) aggravator for constitutional purposes. See
Tucker, 215 Ariz. at 310–11 ¶¶ 31–33, 160 P.3d at 189–90; see also Walton
v. Arizona, 497 U.S. 639, 654–56, 110 S.Ct. 3047 (1990) (concluding that
Arizona court's construction of the (F)(6) aggravator is appropriate under the
Eighth Amendment), overruled on other *527 **584 grounds by Ring II,
536 U.S. at 608–09, 122 S.Ct. 2428.
To evaluate “the propriety of a prosecutor's arguments, we consider
‘whether the remarks called to the jurors' attention matters that they should
not consider.’ ” State v. Morris, 215 Ariz. 324, 336 ¶ 51, 160 P.3d 203, 215
(2007) (quoting State v. Roque, 213 Ariz. 193, 224 ¶ 128, 141 P.3d 368, 399
(2006)). In his comments, the prosecutor sought to clarify the meaning of
“significant period of time” for the jury. The comments with which Cropper
takes issue deal directly with the otherwise-unexplained jury instruction
language he requested; the comments did not dispute the essential elements
of physical cruelty. Consistent with this Court's case law, the prosecutor's
comments emphasized that “significant period of time” did not mean a
particular amount of time, but nevertheless recognized that the state was
required to establish conscious suffering. Because the argument focused on
considerations proper for the jury in light of the instruction Cropper
requested, the prosecutor did not commit misconduct.
Cropper III, 223 Ariz. at ¶¶ 12-14, 225 P.3d at 583–84.
Docket Code 167

Form R000A

Page 29

SUPERIOR COURT OF ARIZONA
MARICOPA COUNTY
CR 1997-003949

02/07/2017

As held by the Supreme Court, the argument was proper, especially so since
the trial court instructed the jury that “The law that applies is stated in these
instructions and it is your duty to follow all of them…” Final Aggravation Phase
Instructions filed 4/8/2008 at 2. As requested by trial counsel, the trial court
instructed the jury that “the victim’s conscious suffering [must have] existed for a
significant period of time.” The jury instruction language included the word
“significant” and the State’s proof obligation, irrespective of what the State
permissibly argued as to its meaning. Id. at 5. A jury is presumed to follow the
court’s instructions to determine that “the victim’s conscious suffering existed for a
significant period of time.”
The record further demonstrates that in establishing this aggravating factor,
it was the State’s intent to “rely on statements made by the Defendant to Lloyd
Elkins, other inmates, detention officers at Maricopa County Sheriff’s Office, and
written correspondence of the defendant. The State will additionally offer proof
through medical testimony of the method of infliction of death and nature of the
injuries.” State’s Notice of Aggravating Factors filed 5/13/1999.11
Defendant couples the State’s argument with its conclusory statement that
the “[Defendant] stabbed [the victim] in the neck in quick succession [and the
victim] lost consciousness.” Reply to NPT Petition at 61. Defendant neglects to
note that the Medical Examiner, Dr. Keen, indicated that the victim may have been
conscious for “minutes” but certainly more than “seconds.” Thus, though argument
as to the “subjectivity” of what was “significant” was proper, considering its
“ordinary meaning,” the use of the word “significant period of time” provided a
more than minimal threshold.
Further, Dr. Keen testified to the length of the attack, based on the blood
evidence: if wound untreated, death would occur more slowly (RT 4/8/2008 at
53); would take minutes (id. at 61). See also, id. at 64. The Defendant secured an
11

Note that the State had evidence in support of the “especial cruelty” aggravator
in 1999, seven years before the defense “inadvertent disclosure.” See Claim V, as
supplemented.
Docket Code 167

Form R000A

Page 30

SUPERIOR COURT OF ARIZONA
MARICOPA COUNTY
CR 1997-003949

02/07/2017

instruction that the State “must show conscious suffering for a significant period of
time” (RT 4/7/2008 at 89) and extracted on Dr. Keen’s concession on crossexamination that the timing he testified to was his opinion; that, in fact, various
factors could decrease the victim’s time of consciousness, including “syncope”;
that there were no eyewitnesses; and that he had read only Cropper’s testimony.
“Cruelty exists if the victim consciously experienced physical or mental
pain prior to death and the defendant knew or should have known that
suffering would occur.” State v. Trostle, 191 Ariz. 4, 18, 951 P.2d 869, 883
(1997) (citation omitted). The evidence demonstrates that Cropper sought
out a violent confrontation. The struggle lasted up to two minutes, he
acknowledged. Further, the medical testimony regarding the victim's wounds
and blood loss demonstrates that the officer suffered physical pain. See State
v. Bearup, 221 Ariz. 163, 172 ¶ 49, 211 P.3d 684, 693 (2009) (cruelty
established when assault lasted between sixty and ninety seconds and
resulted in substantial blood loss); State v. Amaya–Ruiz, 166 Ariz. 152, 177,
800 P.2d 1260, 1285 (1990) (evidence of struggle demonstrated cruelty).
Dr. Philip Keen, former chief medical examiner of Maricopa County and a
specialist in forensic pathology, testified in detail on the nature of the attack.
He explained that the wounds inflicted would have been particularly painful
because of the “higher concentration of nerves” in the neck; the officer
would have felt a “stinging, burning kind of pain.”
Keen also testified that the officer suffered a number of “penetrating
injuries.” The deeper of these cuts severed his thyroid gland, the jugular
vein, and his chest cavity and lung. The officer bled to death as a result of
these injuries. The officer did not, however, experience significant arterial
damage from the attack because his aorta and carotid arteries were not
damaged.
Thus, the time it would have taken to lose consciousness was the time it took
him to bleed out, Keen confirmed. Based on the injuries, the officer would
have “progressively” lost consciousness. Keen testified that it would have
Docket Code 167

Form R000A

Page 31

SUPERIOR COURT OF ARIZONA
MARICOPA COUNTY
CR 1997-003949

02/07/2017

taken “minutes” for him to lose consciousness based on the amount of blood
found in his chest cavity and at the scene.
Despite Cropper's contentions, Keen concluded that it was unlikely the
officer would have lost consciousness in less than a minute. Taken together,
these facts establish beyond a reasonable doubt that the officer consciously
suffered physical pain and Cropper knew or should have known he would
experience such pain.7
Cropper III, 223 Ariz. at 527–28, ¶¶ 17-20, 225 P.3d at 584–85.
The Court finds that Defendant was not prejudiced by the (F)(6) finding.
Defendant committed the murder while in prison, and was also death-eligible
because of the (F)(7) aggravating factor, which has been held to be “extremely
weighty.”12 Further, even without the (F)(6) aggravating factor, the State would
have been permitted to present “circumstances of the offense” for the jury’s
consideration as it evaluated mitigation.
For all these reasons, Claim VII is not colorable.
D.
Ineffective Assistance – Future Dangerousness/Parole (Claims
VIII, IX, XV).
12

The aggravators in this case, in contrast, are entitled to substantial weight. The
(F)(7) aggravator, for example, represents a legislative judgment that inmates who
commit first degree murder while incarcerated have failed to make even minimal
efforts to comply with societal norms and thus warrant particularly serious
treatment. Likewise, Cropper's aggravated assault conviction warrants particular
weight, as it stemmed from another violent attack some eighteen months after he
murdered the corrections officer. Finally, the (F)(6) aggravator is likewise entitled
to considerable weight. In light of the significant aggravating factors, and the
comparatively minimal mitigation, a capital sentence is warranted.
State v. Cropper, 223 Ariz. at ¶ 32, 225 P.3d at 586.
Docket Code 167

Form R000A

Page 32

SUPERIOR COURT OF ARIZONA
MARICOPA COUNTY
CR 1997-003949

02/07/2017

In Claim VIII Defendant alleges that appellate counsel provided ineffective
assistance by “failing to raise the trial court’s error in allowing the State to present
argument about [the defendant’s] alleged ‘future dangerousness,’ which effectively
created a new, non-statutory aggravating circumstance” and by failing to
“federalize” the claim.
Defendant concedes that the State did not actually argue “future
dangerousness” in the 2006 trial. Rather, the State presented evidence that the
Defendant was “a career criminal committing robberies,” placed emphasis on the
Antoine Jones assault aggravator [without describing the underlying facts], and
read defendant’s letters portraying him as an inmate who decided to be “’tough,’
including “engaging in fights if necessary.” Supplemental Reply at 25, FN 4.
The 2008 trial court addressed and determined that defendant’s claim of
remorse and rehabilitation made rebuttal evidence of “future dangerousness”
relevant. Had the issue been raised on appeal, the trial judge’s ruling would have
been reviewed for abuse of discretion (relevant rebuttal) and upheld on appeal. Had
appellate counsel argued, as Defendant now suggests, that “future dangerousness”
created an additional non-statutory aggravating factor, a reviewing court would
have determined that the evidence was properly admitted and, even if not, any
error was harmless as the trial court properly limited the aggravators to those
actually proven, instructing the jury “that three (3) aggravating circumstances
exist.” (Final Penalty Phase Instructions filed 4/25/2008 at 3). Further, in the final
instructions the trial court thereafter refers to “the aggravating circumstances” or
“the aggravating factors,” emphasizing those three originally-named factors. See JI
at 5, 6.
Further, even before its final instructions, the trial court told the jury:
…Three aggravating circumstances exist. They are: (1) the defendant
committed the murder while in the custody of the Department of
Corrections; (2) Mr. Cropper has a prior serious conviction; and (3), the
offense was committed in an especially cruel manner. You must accept these
Docket Code 167

Form R000A

Page 33

SUPERIOR COURT OF ARIZONA
MARICOPA COUNTY
CR 1997-003949

02/07/2017

aggravating circumstances as proven. These are the only aggravating
circumstances you may consider in your sentencing decision…
Preliminary Penalty Phase Instructions filed 4/10/2008 at 2.
Because jurors are presumed to follow their instructions, the reviewing court
would have determined that the jurors did not ignore the court’s limitation of the
aggravators to the three identified aggravating factors and – in violation of those
instructions – improperly consider “future dangerousness” as a fourth aggravating
factor.
The Court finds that Defendant has failed to raise a colorable claim of
ineffective assistance of appellate counsel as to Claim VIII.
In Claim IX Defendant alleges that appellate counsel provided ineffective
assistance by “failing to raise the trial court’s error in refusing to allow the jury to
hear, as mitigating evidence, [the defendant’s] willingness unequivocally to waive
any right ever to seek parole,” and by failing to “federalize” the claim.
In his Supplement to Claim IX [at 14-17], Defendant alleges that trial
counsel provided ineffective assistance by “failing to argue to the court that the
jury should have been told that [defendant] would waive parole because the court
could not have given [defendant] a life sentence with the possibility of parole.
Defendant also alleges that appellate counsel provided ineffective assistance by
“failing not only to raise this issue but failing to raise as a question presented
[defendant’s] right to tell the jury he was waiving parole, because the court could
not have given him a life sentence including the possibility of parole.”
Defendant presents an unsigned waiver, which has never been executed.
Petition Exhibit 13, filed 1/26/2015. The fact is, Defendant did not waive his right
to seek parole. He merely offered to do so. The Court finds that Claim IX is not
colorable.

Docket Code 167

Form R000A

Page 34

SUPERIOR COURT OF ARIZONA
MARICOPA COUNTY
CR 1997-003949

02/07/2017

In his Supplement adding Claim XV (at 36-44), Defendant alleges that trial
counsel provided ineffective assistance by “failing to recognize that a statute
prohibited . . . a life sentence which included the possibility of parole; and in
failing to request a jury instruction to that effect;” and in failing to “argue that
[Defendant] was entitled to present his waiver of parole to the jury.” Defendant
also alleges that appellate counsel provided ineffective assistance by “failing to
recognize the same, and raise the issue, at least as was fundamental error;” in other
words, “appellate counsel’s failure to raise these issues as questions on appeal”
constituted ineffective assistance.
The penalty for First Degree Murder occurring in 1997 is set forth below:
Death; life sentence without release on any basis for the remainder of the
defendant’s natural life. (An order sentencing the defendant to natural life is
not subject to commutation or parole, work furlough or work release.) If the
court does not sentence the defendant to natural life, the defendant shall not
be released on any basis until having served 25 calendar years if the victim
was 15 years of age or older and 35 calendar years if the victim was under
15 years of age. A.R.S. § 13-703.
1997 Criminal Code.13 However, the legislature abolished parole as to murders
committed after 1994; the instant murder occurred in 1997. See State v. Rosario,
13

13–703. Sentence of death or life imprisonment; aggravating and mitigating
circumstances; definition
A. A person guilty of first degree murder as defined in section 13–1105
shall suffer death or imprisonment in the custody of the state department of
corrections for life<<-, without possibility of release->> <<+as determined
and in accordance with the procedures provided in subsections B through G
of this section. If the court imposes a life sentence, the court may order that
the defendant not be released on any basis for the remainder of the
defendant's natural life. An order sentencing the defendant to natural life is
not subject to commutation or parole, work furlough or work release. If the
court does not sentence the defendant to natural life, the defendant shall not
Docket Code 167

Form R000A

Page 35

SUPERIOR COURT OF ARIZONA
MARICOPA COUNTY
CR 1997-003949

02/07/2017

195 Ariz. 264, 268 ¶ 26 (App. 1999) (“The Arizona legislature enacted laws
effective January 1, 1994, eliminating the possibility of parole for crimes
committed after that date. See A.R.S. § 41-1604.09(I).”).
The Court finds that counsel should have been aware of the sentencing
options, including the availability or non-availability of parole. This finding alone,
however, does not mean counsel performed deficiently.
In light of the law in Arizona as it existed until 2016, both trial and appellate
counsel made reasonable decisions in connection with the Simmons/Lynch claims.
Counsels’ decision tracked with subsequent precedent that remained in effect in
Arizona until 2016. Counsel had no reason to anticipate a change in the law.14
be released+>> on any basis until the completion of the service of twentyfive calendar years if the victim was fifteen or more years of age and thirtyfive years if the victim was under fifteen years of age<<-, as determined and
in accordance with the procedures provided in subsections B through G of
this section->>.
CRIMES—DEATH SENTENCES, 1993 Ariz. Legis. Serv. Ch. 153 (H.B. 2048)
(WEST).
14

Lynch holds that a defendant is entitled to a Simmons instruction upon
request if the State argues a defendant’s “future dangerousness.” Lynch was
decided by the United States Supreme Court in 2016. In Lynch the United States
Supreme Court overruled not just Lynch but prior Arizona decisions to the extent
that they preclude the jury from being instructed and defense counsel being able to
argue that any life sentence imposed by the jury mandates that the defendant be
incarcerated for life short of receiving executive clemency.
In State v. Cruz, 218 Ariz. 149 (2008) our Supreme Court held that Simmons
did not apply in Arizona.
“Cruz’s case differs from Simmons. No state law would have
prohibited Cruz’s release on parole after serving twenty-five years,
had he been given a life sentence. See A.R.S. § 13-703(A) (2004). The

Docket Code 167

Form R000A

Page 36

SUPERIOR COURT OF ARIZONA
MARICOPA COUNTY
CR 1997-003949

02/07/2017

The Court finds that it was objectively reasonable for counsel not to pursue
this claim. The Court finds that this ineffectiveness claim is not colorable in
connection with either trial or appellate counsel.
Nor does the Court find Defendant has demonstrated prejudice.15 At trial in
2008, the Court gave the following instructions:
You individually determine whether mitigation exists. In light of the
aggravating circumstances you have found, you must then
individually determine if the total of the mitigation is sufficiently
substantial to call for leniency. “Sufficiently substantial to call for
leniency “means that mitigation must be of such quality or value that
it is adequate, in the opinion of an individual juror, to persuade that
juror to vote for a sentence of life in prison.
Even if a juror believes that the aggravating and mitigation
circumstances are of the same quality or value, that juror is not
required to vote for a sentence of death and may instead vote for a
sentence of life in prison. A juror may find mitigation and impose a
life sentence even if Defendant does not present any mitigation
evidence.

jury was properly informed of the three possible sentences Cruz faced
if convicted: death, natural life, and life with the possibility of parole
after twenty-five years.”
15

The jury did not reach a penalty phase verdict at the conclusion of the
2006 resentencing. The preliminary jury instructions identified possible sentences,
other than death, as including life without release for 25 years or natural life. RT
12/14/2006 at 13. The final penalty phase jury instructions referred only to a life
sentence, referring to “life with 25/natural life” in response to a jury question.
Docket Code 167

Form R000A

Page 37

SUPERIOR COURT OF ARIZONA
MARICOPA COUNTY
CR 1997-003949

02/07/2017

A mitigating factor that motivates one juror to vote for a sentence of
life in prison may be evaluated by another juror as not having been
proved or, if proved, as not significant to the assessment of the
appropriate penalty. In other words, each of you must determine
whether, in your individual assessment, the mitigation is of such
quality or value that it warrants leniency in this case.
…………………
If you unanimously find that the Defendant should be sentenced to life
imprisonment, your foreperson shall sign the verdict from indicating
your decision. If you unanimously find that the Defendant should be
sentenced to death, your foreperson shall sign the verdict form
indicating your decision….
Final Penalty Phase Instructions filed 4/25/2008 at 5-6.
Both the preliminary and the final penalty phase instructions referred to “life
imprisonment” and “life in prison” and did not reference “parole” or the
“possibility of parole.” See Final Penalty Phase Jury Instructions 4/25/2008 at 6.
The Court finds no colorable claims of prejudice, as any error would have
been deemed harmless. The jury was faced with a Defendant who had previously
been sentenced to probation, who had been placed on parole, and who had
murdered a corrections officer while in prison, as well later had committed an
aggravated assault. See RT 12/14/2006 at 68; 83; and the (F)(2), (F)(6) and (F)(7)
aggravators. The availability of parole, whether waived by Defendant or
unavailable by statute and procedures, is unlikely to have been sufficiently
substantial to suggest leniency to change the verdict of death to “life” in even a
single juror’s mind.
The Court finds Claim XV is not colorable.

Docket Code 167

Form R000A

Page 38

SUPERIOR COURT OF ARIZONA
MARICOPA COUNTY
CR 1997-003949

02/07/2017

E.
Ineffective Assistance – Timing and Effect of Guilty Plea (Claims
X, XII).
In Claim X Defendant alleges that trial counsel “for the first trial in this
case, as well as [the defendant’s] counsel in State v. Cropper, CR 2000-000245”
provided ineffective assistance by “failing to inform and advise [the defendant]
about the effects of a plea of guilty in [the noncapital] case 245. [The defendant’s]
counsel in this case were ineffective for failure to contest the State’s election to
add, as an additional aggravating factor,[the defendant’s] conviction for a crime
which occurred the [sic] after [the defendant] had pled guilty.”
In Defendant’s Declaration filed 1/26/2015 he states, “Had I known the state
could use the plea as an aggravator, I would definitely have gone to trial... [My]
attorney” never clearly told me that the state could use a plea….” Defendant says
he agreed to the plea in exchange for leniency for co-defendant.
Initially, the Court notes that the Arizona Supreme Court had been advised
orally that the aggravated assault plea would be used to establish the (F)(2)
aggravating factor:
Cropper also argues that the State failed to comply with the rule because it
did not give him written notice. The purpose of Rule 15.1.g(2)'s requirement
of written notice is to ensure that a defendant receives timely, actual notice
of the state's penalty phase objectives. In this case, Cropper did receive
actual notice that the State would argue the F.2 aggravator just three days
after the precipitating crime occurred and four months before the
aggravation/mitigation hearing began. He does not attest that, under those
facts, he faced any real danger of prejudice. Cf. State v. Lee, 185 Ariz. 549,
556, 917 P.2d 692, 699 (1996) (holding not prejudicial the state's inadvertent
failure to provide defendant notice of intent to seek the death penalty under
Rule 15.1.g(1) until eighty-seven days after such notice was required
because defendant had actual notice of the prosecutor's intent to seek the
death penalty).
Docket Code 167

Form R000A

Page 39

SUPERIOR COURT OF ARIZONA
MARICOPA COUNTY
CR 1997-003949

02/07/2017

Because Cropper had actual, although oral, notice of the prosecutor's intent
to use the aggravated assault conviction as a prior serious offense
aggravating circumstance and the delay caused him no prejudice, the State
adequately noticed the prior serious conviction aggravating circumstance.
Cropper I, 205 Ariz. at ¶¶ 15-17, 68 P.3d at 410–11, supplemented, 206 Ariz. 153,
76 P.3d 424.
The Court is bound by the Supreme Court’s determination.
Were the court to address the substance of the claim, the Court would
determine that it lacked merit. The Court finds that pleadings filed over fifteen
years ago demonstrate that both trial counsel and Defendant appear to have entered
the guilty plea for strategic reasons, in order to support an argument that not only
was use of a subsequent plea to support the (F)(2) aggravator improper, but also to
support an argument that a guilty plea (as opposed to a conviction after trial) was
insufficient to support the (F)(2) aggravating factor.16
16

Defendant’s present statement of the facts is belied by representations
made by the State, and inferences in his own pleadings made at the time. In
connection with the (F)(2) aggravating factor that was based on the Antoine Jones
incident, the State wrote:
…As a result [of the 1999 assault on Jones with a shank, Defendant] was
indicted on Aggravated Assault charges in CR 2000-000245. Shortly
thereafter, Defendant and the Court were advised that the State intended to
use any conviction in the new cause number as an aggravating factor under
A.R.S. § 13-703(F)(2). Court and counsel [agreed to continue the 703
Hearing until the disposition of the Jones case]. On June 22, 2000,
[Defendant] pled guilty to Aggravated Assault [with sentencing to be
contemporaneous with the capital case].
State’s Sentencing Memorandum re: Aggravating Factors filed 9/5/2000.
Docket Code 167

Form R000A

Page 40

SUPERIOR COURT OF ARIZONA
MARICOPA COUNTY
CR 1997-003949

02/07/2017

Further, the Court notes that the conviction in CR 2000-000245 has not been
vacated, and that neither the Due Process Clause nor the Eighth Amendment are
offended by its use in support of the (F)(2) aggravator. See State v. McCann, 200
Ariz. 27, 31, 21 P.3d 845, 849 (2001) (unchallenged-at-trial prior conviction
entitled to presumption of constitutional validity).
The Court further finds no colorable claims of prejudice due to the existence
of an additional aggravating factor, the “extremely weighty” (F)(7) aggravating
factor.
For all these reasons, Claim X is not colorable.
In Claim XII Defendant alleges that trial counsel provided ineffective
assistance by “advising [the defendant] to plead guilty to the murder charge, before
having completed the psychiatric evaluation that Dr. Lewis recommended be
completed.”
Even had trial counsel secured the psychiatric examination before Defendant
entered his guilty plea in the instant (Lumley) case, the record provides no
In response, the Defendant wrote:
Counsel previously objected to the Court granting a continuance of the 703
hearing until the state obtained the conviction forming the substance of this
factor. Counsel reserves all of this argument.
Further, counsel would further object to the use of a conviction resulting
from facts which occurred after the facts of this case. Counsel would show
the Court that use of a case which occurred not only after the date of the
offense here, but also, which occurred after his guilty plea, violates the
notice requirements of Rule 15.1(g) [inter alia].
Response to State’s Sentencing Memorandum (filed 9/25/2000).
Docket Code 167

Form R000A

Page 41

SUPERIOR COURT OF ARIZONA
MARICOPA COUNTY
CR 1997-003949

02/07/2017

evidence that the verdict of guilt would have changed had Defendant gone to trial.
The psychiatric evaluation does not appear to support – nor does the record
establish – a basis for a GEI defense, which could potentially negate a guilty plea.
Rather, the record demonstrates that trial counsel ascertained that a psychiatric
evaluation might properly be used at the sentencing hearing to seek leniency. Trial
counsel secured, and argued, the reports of three experts at sentencing. Defendant’s
Mitigation Memorandum filed 9/26/2000.
Further, the record demonstrates that observing his co-defendants’ trials, and
seeing the victim’s wife, Mrs. Lumley, allegedly had a profound effect on the
Defendant, resulting in his desire to accept responsibility and to cooperate. RT
4/25/2008 at 16 (began to feel badly about events per Brian Abernathy testimony).
Defendant’s change of plea, as explained by trial counsel Steinle at the time,
was intended to facilitate “what [the defendant] originally wanted to do, which is
to come into court and accept responsibility for what he did. Is that correct, Mr.
Cropper?” To which Mr. Cropper responded, “That’s right.” RT 5/4/199917 at 17.
In more detail, trial counsel explained:
Judge, on the voluntariness and whether or not it’s an intelligent plea,
I’d like to indicate to the Court that our discussions in this matter
started last October while Mr. Cropper was back at the Department of
Corrections. We had several opportunities to talk about it. We had
several opportunities to talk about what rights he would give up. We
discussed at length my view of the, the evidence and where we
thought we were going. We also discussed what would be the impact
on appeal if the entered guilty pleas. And over the course of October
to today, there’s been numerous discussions with myself and other
members of the defense team from our office on the issue. And a lot
of what we’re trying to do today is accomplish what Mr. Cropper
17

The transcript cover page incorrectly identifies the change of plea date as
5/6/1999; the correct date is 5/4/1999.
Docket Code 167

Form R000A

Page 42

SUPERIOR COURT OF ARIZONA
MARICOPA COUNTY
CR 1997-003949

02/07/2017

originally wanted to do, which is to come into court and accept
responsibility for what he did.
Is that correct, Mr. Cropper?
Mr. Cropper:

That’s right.

Trial counsel continued:
This wasn’t a decision that came in the last few weeks. This has been
an ongoing process to try to accomplish pretty much what Mr.
Cropper wanted from last October.
The Court: Do you agree with what Mr. Steinle just said, Mr. Cropper?
Mr. Cropper:
Yes, I do.
…….
Trial counsel added:
Judge, one other thing that I’d like to point out to the Court for the
purposes of the voluntariness of the plea. We did it now so that I
could complete virtually all of the witness interviews. We’ve
interviewed every significant witness in the case. We’ve had access to
the transcripts in both of the Howell trials to go over. So the timing
was more to make sure that I completed all of the discovery to make
sure that I was satisfied as to the, the basis of it. And I want that also
to be part of the record.
RT 5/4/1999 at 16-18.
Further, in “testimony of September 2nd, 1999, in the Eugene Long and Dino
Kyzar trial” beginning at page 163, Defendant testified under oath:
After I ate my lunch, and I was formulating my plans to make – to
murder Mr. Lumley, I watched out the window, and I seen
Landsperger walk into the gates, letting inmates in or out. And I seem
Mr. Lumley by the CD control, and I seen Mr. Lumley enter the CD
Docket Code 167

Form R000A

Page 43

SUPERIOR COURT OF ARIZONA
MARICOPA COUNTY
CR 1997-003949

02/07/2017

control. Then I seen Landsperger just going back and forth, so I knew
Mr. Lumley was in the CD control.
Question from Mr. Schutts:
So you didn’t have any help that day, as this
was going on; is that correct?
Answer:
I didn’t need any help.
Question: From any other inmates?
Answer:
No. This whole murder of Mr. Lumley was my plan, my
actions. There was nobody else involved in it, no matter how
much you want them to be involved.
RT 4/25/2008 at 24 (transcript excerpt read by Mr. Abernathy, who was in court
when Defendant testified).
The Court finds that the record demonstrates that Defendant determined to
accept responsibility for the murder of Mr. Lumley for his own reasons; that trial
counsel and the defense team counseled with the Defendant; and that there is no
indication that the Defendant was either not competent or mentally incapable of
entering a knowing, intelligent and voluntary plea.
As Defendant now suggests, he may have been “entitled to explore the
question and impact of his claimed ‘character trait of impulsivity, and lack of the
ability to inhibit his aggression and impulse control.’ Supplemental Reply at 38,
FN 8. However, given the nature of the crime and Defendant’s role in planning and
securing assistance, the Court finds that the claim that trial counsel provided
ineffective assistance by failing to secure further mental health evaluations prior to
the plea is unsupported.
The Court therefore finds that Claim XII is not colorable.
F.

Ineffective Assistance – Victim Impact Statements (Claim XI).

In Claim XI Defendant alleges that appellate counsel provided ineffective
assistance by “failing to raise as an issue the impropriety of allowing victim impact
Docket Code 167

Form R000A

Page 44

SUPERIOR COURT OF ARIZONA
MARICOPA COUNTY
CR 1997-003949

02/07/2017

statements under an inapplicable Arizona statute, and violation of the 8 th and 14th
Amendments to the United States Constitution, of the victim impact statements in
this case. The victim impact statements made to the sentencing jury in 2008
violated defendant’s constitutional rights under United States Constitution
Amendment XIV, and analogous Arizona constitutional provisions.”
Before the 2000 judge-sentencing hearing Defendant filed a Motion to
Preclude Victim Impact Evidence (filed 11/30/1999) on state and federal
constitutional grounds, supporting his request with a ten-page Memorandum of
Points and Authorities. As has since been recognized, by case law and statutes, a
victim has a right to tell the jury about the impact of a defendant’s crime before the
defendant is sentenced, but may not suggest the sentence. Lynn v. Reinstein, 205
Ariz. 186, 189, ¶ 10, 68 P.3d 412, 415 (2003).
Had appellate counsel raised on appeal the propriety of the victim impact
statement and of the victim’s request that the jury “give me closure,” the reviewing
court would have found the victim impact statement to be admissible, and would
have further found that this victim’s request properly addressed how the victim’s
death affected his family and was not outside appropriate bounds of victim impact
testimony and not unduly prejudicial. State v. Gallardo, 225 Ariz. 560, 242 P.3d
159 (2010). The statement did not seek a particular penalty but rather sought
finality for the victims, in whatever form the jury determined was warranted.
The trial court further described the use to be made of the Victim Impact
Information:
Relatives of the victims made statements relating to personal characteristics
and uniqueness of the victim and the impact of the murder on the victim’s
family, you may consider this information to the extent that it rebuts
mitigation. You may not consider the information as a new aggravating
circumstance.
Final Penalty Phase Instructions filed 4/25/2008 at 5.
Docket Code 167

Form R000A

Page 45

SUPERIOR COURT OF ARIZONA
MARICOPA COUNTY
CR 1997-003949

02/07/2017

The Court finds that Claim XI not colorable.
G.

Ineffective Assistance – Restitution (Claim XIII).18

In Claim XIII Defendant alleges that “[a]n unlawful sentence is being
carried out against [the defendant], because the Department of Corrections is
violating the terms of his sentencing judgment, by withdrawing from [the
defendant’s] prisoner drawing account not only a percentage of his earnings, but of
monies received from others and put into his prison account.”
In his Supplement to Claim XIII (at 49-52) Defendant re-alleges that an
“[u]nlawful sentence is being carried out by [the] amount of restitution funds
withdrawn from [defendant’s] account,” in order to attach Exhibit 41 (allegedly
“confirming [defendant’s] qualifications for prison labor”).
Defendant claims that by citing to A.R.S. § 31-254(D) and (E), the
sentencing court necessarily limited any restitution payment to an amount that
“shall be 30% of defendant’s earnings….” Restitution Order entered 11/3/2000.
Defendant alleges that in 2009 ADOC began withdrawing restitution from
defendant’s A.R.S. § 31-230 spendable account, which included monies gifted to
him.
Yet gifts are not exempt from statutory provisions authorizing the collection
of restitution from inmates. State v. Glassel, 226 Ariz. 369, 248 P.3d 217 (App.
2011); State v. Stocks, 227 Ariz. 390, 258 P.3d 208 (App. 2011). Nor can the
Court discern any legitimate basis for faulting defense counsel in connection with
such orders.

18

To the extent argued independent of any claim of ineffectiveness, the Court finds
that this claim is either: i) not cognizable under Rule 32.1(a); or ii) procedurally
precluded pursuant to Rule 32.6(c) in a direct appeal of the Court’s earlier orders.
For the reasons stated above, the Court also finds them lacking in merit.
Docket Code 167

Form R000A

Page 46

SUPERIOR COURT OF ARIZONA
MARICOPA COUNTY
CR 1997-003949

02/07/2017

The Court therefore finds Claim XIII is not colorable.
H.

Ineffective Assistance – Death Penalty (Claim XVI).

In his Supplement adding Claim XVI (at 53),Defendant alleges that “[t]he
imposition of the death penalty constitutes cruel and unusual punishment in
violation of the Eighth and Fourteenth Amendments.” In support of his claim,
Defendant cites “evolving standards of decency” as articulated by various
dissenting justices.
The Court finds that although the Arizona Supreme Court has advised that
execution-related issues may properly be raised in post-conviction proceedings, it
is premature as to this defendant. This defendant is not currently facing imminent
execution because a warrant of execution has not been issued in his case. In fact,
executions are currently stayed in Arizona. See Wood v. Ryan, CV 14-01447-PHXNVW, United States District Court, District of Arizona, Order dated 11/24/2014.
Because there is no guarantee as to what Arizona’s protocol will be at the time of
his execution, if any, this issue is not yet in controversy, and is not ripe for
determination.
Further, our Supreme Court has previously upheld the constitutionality of
the Arizona capital punishment scheme, and has specifically determined that the
Arizona statute—
…constitutionally prescribes that the method of death shall be lethal
injection. See State v. Hinchey, 181 Ariz. 307, 315, 890 P.2d 602, 610
(1995) (considering and rejecting argument that death by lethal injection
constitutes cruel and unusual punishment). Hinchey's pronouncement that
lethal injection as a method of execution comports with the Eighth
Amendment was not conditioned upon the use of particular procedures in
implementing lethal injection. Moreover, the United States Supreme Court
has never held that death by lethal injection is cruel and unusual absent
specific procedures for implementation, nor does Andriano cite any cases to
Docket Code 167

Form R000A

Page 47

SUPERIOR COURT OF ARIZONA
MARICOPA COUNTY
CR 1997-003949

02/07/2017

that effect. Andriano has thus failed to establish an Eighth Amendment right
to a particular protocol for lethal injection.
State v. Andriano, 215 Ariz. 497, 510, 161 P.3d 540, 553 (2007) abrogated by
State v. Ferrero, 229 Ariz. 239, 274 P.3d 509 (2012).
Death by lethal injection has been determined to be constitutional. State v.
Lynch, 238 Ariz. 84, 357 P.3d 119 (2015) (lethal injection held not to violate the
Eighth Amendment to the United States Constitution and Article 2, Section 15, of
the Arizona Constitution; nor to constitute cruel and unusual punishment)
The Court finds Claim XVI is not colorable.
I.
Ineffective Assistance – Cumulative Error and “Failure to
Federalize.”
Throughout his pleadings Defendant claims he is entitled to relief on the
basis of “cumulative error.” In accordance with Arizona law, the Court finds that
Defendant has no basis for this claim. Arizona law may provide relief on the basis
of individual error; Arizona law does not recognize the cumulative error doctrine,
other than in the context of prosecutorial misconduct. The Court finds that this
claim is not colorable.
Throughout his pleadings Defendant similarly claims that appellate
counsel’s “failure to federalize” various claims constitutes ineffective assistance of
appellate counsel. See Claims V (disclosure of privileged materials); VI
(unconstitutionality on its face and as applied of “especially cruel” aggravating
factor); VII (arguments relating to cruelty instruction as “mere error of state law);
VIII (“future dangerousness” argument as additional aggravating factor); and IX
(willingness to waive parole).

Docket Code 167

Form R000A

Page 48

SUPERIOR COURT OF ARIZONA
MARICOPA COUNTY
CR 1997-003949

02/07/2017

Defendant has failed to establish deficient performance. Counsel’s failure to
“federalize” a state claim that was not demonstrably a winning claim at the time of
appeal does not constitute deficient performance under Strickland.
Absent such a showing – as is the case here – the Court cannot conceive of a
reasoned basis for finding prejudice. To find prejudice, the Court would have to
speculate not only as to what the appellate court “might have done” in the past, had
the claim been raised, but also what habeas counsel and then what a federal court
on habeas review “might do” in the future. Defendant cites no authority holding
that the failure to federalize a claim constitutes prejudice per se, and this Court
declines to so hold.
The Court finds that the “failure to federalize” claims not colorable.
J.

Ineffective Assistance – Resentencing by a Jury (Pro Per Claim).

In his pro per Claim, Defendant alleges that Arizona statutes changed the
definition of “capital murder,” and also alleges that Arizona statutes that authorize
a jury that did not hear the guilt phase to adjudicate the aggravation and penalty
phases at resentencing, violate defendant’s state and federal constitutional rights to
counsel, to a jury trial and to due process.
Pursuant to Rule 32.6(c), the Court finds that this claim is procedurally
precluded from Rule 32 relief. An issue is precluded if it was raised, or could have
been raised, on direct appeal or in prior Rule 32 proceedings. State v. Towery, 204
Ariz. 386, 64 P.3d 828 (2003); Stewart v. Smith, 202 Ariz. 446, 46 P.3d 1067
(2002); State v. Mata, 185 Ariz. 319, 334, 916 P.2d 1035 (1996). Pursuant to this
authority and Rule 32.2(a)(1), the Court finds the defendant’s proper claim to be
precluded from relief.
Alternatively, the Court finds that this claim is not colorable. First, the
Defendant has always been - ever since the filing of the State’s Notice of Intention
to Seek the Death Penalty on 5/5/1997 - potentially guilty of “capital murder:”
Docket Code 167

Form R000A

Page 49

SUPERIOR COURT OF ARIZONA
MARICOPA COUNTY
CR 1997-003949

02/07/2017

pre-Ring when the judge found at least one aggravating factor (rendering
Defendant eligible for the death penalty) and sentenced him to death, and postRing when the jury made the findings of death-eligibility and penalty.
The Defendant appears also to be arguing that when he pled guilty, he
thought the penalty phase (mitigation; sentencing) would be determined by a
judge, and that Ring III19 changed the posture of the case such that his guilty plea is
invalid. Ring III was a procedural change that recognized the right of a defendant
in a death penalty case to be sentenced by a jury:
In Ring III, this Court explained that “Arizona's change in the statutory
method for imposing capital punishment is clearly procedural.” 204 Ariz. at
547 ¶ 23, 65 P.3d at 928. This is so because the change to jury sentencing
made no change in punishment and added no new element to the crime of
first degree murder. Id. Moreover, the Court rejected the argument that the
procedural change had a substantive impact, noting that the state is still
required to prove aggravating circumstances beyond a reasonable doubt. Id.
at ¶ 24. “The only difference is that a jury, rather than a judge, decides
whether the state has proved its case.” Id.
Our holding in Ring III was based, in part, on the Supreme Court's identical
conclusion in Dobbert v. Florida, 432 U.S. 282, 97 S.Ct. 2290 (1977). Id. at
546 ¶ 20, 65 P.3d at 927. In the context of a capital resentencing after a
change in sentencing procedure, Dobbert explained that no *526 **583 ex
post facto claim arises when “[t]he new statute simply alter[s] the methods
employed in determining whether the death penalty was to be imposed,” and
not “the quantum of punishment attached to the crime.” 432 U.S. at 293–94,
97 S.Ct. 2290.
Cropper III, 223 Ariz. at ¶¶ 9-10, 225 P.3d at 582–83.
19

State v. Ring, 204 Ariz.534, 65 P.3d 915 (2003) (Ring III).

Docket Code 167

Form R000A

Page 50

SUPERIOR COURT OF ARIZONA
MARICOPA COUNTY
CR 1997-003949

02/07/2017

When Defendant entered his guilty plea, he did so in anticipation of a
constitutional sentencing, which is what occurred. At all times he was represented
by competent counsel. Due process was satisfied. The Court finds this claim not to
be colorable.
CONCLUSION
The Court finds that the defendant has failed to raise colorable claims for
relief regarding all claims raised in these post-conviction pleadings, including the
pro per and supplemental claims. A colorable claim for post-conviction relief is
“one that, if the allegations are true, might have changed the outcome” of the
proceeding. State v. Runningeagle, 176 Ariz. 59, 63, 859 P.2d 169, 173 (1993);
Ariz. R. Crim. P. 32.6(c) (“court shall order…petition dismissed” if claims present
no “no material issue of fact or law which would entitle defendant to relief”);
32.8(a) (evidentiary hearing required “to determine issue of material fact”).
Based on all of the above,
IT IS THEREFORE ORDERED dismissing Defendant’s nunc pro tunc
Petition for Post-Conviction Relief (“NPT Petition”), the Defendant’s
Supplemental Rule 32 Claim (“Pro Per Claim”), and the Supplement to Petition for
Post-Conviction Relief.

i

On March 7, 1997, ADOC corrections officers at the Perryville State Prison
in Goodyear, Arizona, discovered that some mops were missing from the
Building 26 supply room. Officers Brent Lumley and Deborah Landsperger
began searching for the missing mops in the nearby cells. They found no
mops in the first cell searched, number 257, occupied by inmates Eugene
Long and Bruce Howell. The officers moved on to the adjacent cell, number

Docket Code 167

Form R000A

Page 51

SUPERIOR COURT OF ARIZONA
MARICOPA COUNTY
CR 1997-003949

02/07/2017

258, which held inmates Cropper and Lloyd Elkins. While searching cell
258, Officers Lumley and Landsperger uncovered various contraband items,
including a knife, tattooing equipment and a possible “hit” list. While the
officers conducted the search, Cropper repeatedly approached and entered
the cell, yelling at the officers and complaining of the search. The search
obviously distressed Cropper, who believed the officers disrespected him
and his property, and he became enraged because the searchers damaged a
photograph of his mother. After Officers Lumley and Landsperger finished
their search, they placed Cropper and Elkins on “lockdown” status in their
cell, whereby their cell door was locked from the master control panel in the
control room and the two inmates were unable to leave.
Through his cell door and a common vent between cells 257 and 258,
Cropper spoke to several fellow inmates about his plan to kill Officer
Lumley. Inmates Eugene Long and Joshua Brice agreed to help and
retrieved an eight-inch steel carving knife buried in one of the Building 26
yards. Using two fly-swatters attached to one another Long passed Cropper
the knife through the vent between the two cells. The inmates in cell 257
then passed a right-handed glove through the vent to Cropper. Cropper
removed a lace from one of his shoes and wrapped it around the knife handle
to provide a better grip.
Cropper needed to find a way out of his cell. An inmate is able to leave a
locked cell if a fellow inmate “spins the lock” to his cell door. This lock
picking procedure, performed manually on the cell door lock from outside
the cell, bypasses the control room's electronic lock command. Howell and
another inmate, Arthur Zamie, successfully opened the door, and then
looked for Officers Lumley and Landsperger. Howell and Long returned to
Cropper's cell and told him that Lumley was in the control room, with the
door unlocked.
Cropper left his cell, walked down the hall and entered the control room.
Cropper snuck up behind Officer Lumley and thrust the knife into his neck,
partially pulled it out, then pushed it in a second time from another direction.
Docket Code 167

Form R000A

Page 52

SUPERIOR COURT OF ARIZONA
MARICOPA COUNTY
CR 1997-003949

02/07/2017

By the time Cropper finished, Lumley suffered a total of six stab wounds.
Cropper left the control room, leaving the knife protruding from his victim's
neck.
Cropper ran back to his cell from the control room and found the cell door
locked. He tried to enter another locked cell and eventually reached cell 257,
where he found the door unlocked. As he entered, he told Howell, who was
inside cell 257, “I got him.”
Cropper's clothes were covered with blood. He removed his sweatshirt and
undershirt and threw them into Howell's trash can. He tore off a name tag
sewn on the collar of his shirt and flushed it down Howell's toilet.
Cropper returned to his cell after an unidentified inmate spun the cell door
lock. Cropper's cellmate Elkins helped him wipe away the blood on his
body. Cropper also soaked his pants and shoes in a mixture of water and
laundry detergent to clean off the blood.
Meanwhile, Howell gathered the bloody clothes from his trash can and
placed them inside a garbage bag, which he threw onto the Building 26 roof.
Howell then wiped blood from the door knob to Cropper's cell with one of
his socks. DNA tests showed that the blood recovered from Cropper's shoes,
underwear and the glove was consistent with Lumley's blood.
Cropper I, 205 Ariz. at, ¶¶ 2-9, 68 P.3d at 408–09, supplemented, 206 Ariz. 153,
76 P.3d 424.

Docket Code 167

Form R000A

Page 53

